<html>
<title> - CYBERSECURITY CHALLENGES FOR STATE AND LOCAL GOVERNMENTS: ASSESSING HOW THE FEDERAL GOVERNMENT CAN HELP</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


CYBERSECURITY CHALLENGES FOR STATE AND LOCAL GOVERNMENTS: ASSESSING HOW 
                    THE FEDERAL GOVERNMENT CAN HELP

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                       PROTECTION, AND INNOVATION

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________

                           Serial No. 116-29

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-782 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                                 ------                                

     SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND 
                               INNOVATION

                Cedric L. Richmond, Louisiana, Chairman
Sheila Jackson Lee, Texas            John Katko, New York, Ranking 
James R. Langevin, Rhode Island          Member
Kathleen M. Rice, New York           John Ratcliffe, Texas
Lauren Underwood, Illinois           Mark Walker, North Carolina
Elissa Slotkin, Michigan             Van Taylor, Texas
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
               Moira Bergin, Subcommittee Staff Director
           Sarah Moxley, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     5
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                               Witnesses

Ms. Keisha Lance Bottoms, Mayor, City of Atlanta:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Thomas Duffy, Chair, Multi-State Information Sharing and 
  Analysis Center (MS-ISAC), Senior Vice President of Operations, 
  Center for Internet Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Ahmad Sultan, Affiliated Researcher, Center for Long-Term 
  Cybersecurity, School of Information, University of California, 
  Berkeley:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Frank J. Cilluffo, Director, McRary Institute for Cyber and 
  Critical Infrastructure, Auburn University:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                             For the Record

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Statement of Talib I. Karim, CEO STEM4US!, Inc.................    49

 
CYBERSECURITY CHALLENGES FOR STATE AND LOCAL GOVERNMENTS: ASSESSING HOW 
                    THE FEDERAL GOVERNMENT CAN HELP

                              ----------                              


                         Tuesday, June 25, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Cybersecurity, 
                                 Infrastructure Protection,
                                            and Innovation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:07 p.m., in 
room 310, Cannon House Office Building, Hon. Cedric L. Richmond 
(Chairman of the subcommittee) presiding.
    Present: Representatives Richmond, Langevin, Rice, 
Underwood, Slotkin, Thompson (ex officio), Katko, Taylor, and 
Rogers (ex officio).
    Mr. Richmond. The Subcommittee on Cybersecurity, 
Infrastructure Protection and Innovation will come to order.
    The subcommittee is meeting today to receive testimony on 
cybersecurity challenges for State and local governments, 
assessing how the Federal Government can help.
    Good afternoon. I want to welcome the panelists to today's 
hearing on cybersecurity at the State and local level. This is 
a topic that I believe deserves far more attention than it 
gets.
    Since joining this subcommittee, I found that, while we can 
all agree that cybersecurity is an important topic, it can 
start to feel unapproachable to people on the ground. As 
Chairman, I want to spend some time looking at how 
cybersecurity impacts real people, like the ones I represent in 
the Second Congressional District of Louisiana. I know that my 
constituents work long hours and have hard jobs, sometimes more 
than one. Many of them are not thinking about phishing emails 
or ransomware or whether a hostile foreign government has 
gained access to the networks that control their drinking 
water, their transportation, or their medical care.
    While the Federal Government has an important role to play 
in securing these networks, State and local governments own 
them. The staffing, structure, and resources available to State 
and local agencies vary across the country, but many of them 
are operating with a shoestring budget. Like Federal agencies, 
they are increasingly being targeted with sophisticated cyber 
attacks. Time and time again, we have seen that these attacks 
can be debilitating, taking out the tools and services people 
need to access health benefits, buy a home, or even call 9-1-1.
    As any city official who has recovered from one of these 
cyber disruptions can tell you, the aftermath can have a hefty 
price tag. This is a drain on taxpayer dollars, time, and 
labor, all of which are in short supply at the State and local 
levels.
    We also know that these attacks are becoming more frequent 
and more advanced. According to the security firm, Recorded 
Future, there have been at least 170 ransomware attacks carried 
out on county, city, or State governments since 2013, including 
20 reported so far this year. That is just the incidents that 
were reported. The actual numbers are probably far higher.
    But there is another problem as well. Today, we rely on the 
internet to an extent that we never have before. Access to 
connected devices and an understanding of how to use them 
securely is the very foundation of economic mobility. Yet we 
also know that many in our communities do not have the same 
means, access, or opportunity to build a level of comfort with 
technology.
    While we talk a lot about how automation might impact the 
work force, we talk less about how poor cyber hygiene and low 
tech literacy can present a real economic barrier to entry. 
Right, now studies show that the most vulnerable underserved 
among us, low-income, immigrants, or elderly populations, are 
the most likely to fall victim to an on-line scam or click the 
wrong link. These mistakes can be costly, especially for 
someone on the margins. Negative experiences like these may 
also lead many to steer clear of important on-line services, 
like on-line banking, health management tools, or even email.
    This response, left unchecked, will only serve to deepen 
economic divides and allow our most vulnerable populations to 
fall further behind. We have to confront this head-on. I look 
forward to hearing from this panel on how we might do that.
    This is not a State or local problem but a National one, 
and we should invest accordingly at the Federal level. 
Ultimately, we cannot expect underresourced, understaffed State 
and local governments to defend their networks from State-
sponsored hackers from Russia, China, and Iran. Toward that 
end, I am working on a comprehensive package to improve the 
cybersecurity posture of our State and local governments.
    I look forward to hearing from our witnesses today about 
opportunities to address this important National security 
issue.
    [The statement of Chairman Richmond follows:]
                Statement of Chairman Cedric L. Richmond
                             June 25, 2019
    This is a topic that I believe deserves far more attention than it 
gets. Since joining this subcommittee, I have found that--while we can 
all agree that cybersecurity is an important topic--it can start to 
feel unapproachable to people on the ground. As Chairman, I want to 
spend some time looking at how cybersecurity impacts real people--like 
the ones I represent in the 2d District of Louisiana. I know that my 
constituents work long hours and have hard jobs, sometimes more than 
one. Many of them are not thinking about phishing emails or ransomware 
or whether a hostile foreign government has gained access to the 
networks that control their drinking water, transportation, or medical 
care. And, while the Federal Government has an important role to play 
in securing these networks, State and local governments own them. The 
staffing, structure, and resources available to State and local 
agencies vary across the country--but many of them are operating with a 
shoestring budget. And, like Federal agencies, they are increasingly 
being targeted with sophisticated cyber attacks.
    Time and again, we've seen that these attacks can be debilitating--
taking out the tools and services people need to access health 
benefits, buy a home, or even call 9-1-1. As any city official who has 
recovered from one of these cyber disruptions can tell you, the 
aftermath can have a hefty price tag. This is a drain on taxpayer 
dollars, time, and labor--all of which are in short supply at the State 
and local levels. We also know that these attacks are becoming more 
frequent and more advanced. According to security firm Recorded Future, 
there have been at least 170 ransomware attacks carried out on county, 
city, or State governments since 2013--including over 20 reported so 
far this year. That's just the incidents that were reported. The actual 
numbers are probably far higher.
    But there's another problem, as well. Today, we rely on the 
internet to an extent that we never have before. Access to connected 
devices--and an understanding of how to use them securely--is the very 
foundation for economic mobility. Yet we also know that many in our 
communities do not have the same means, access, or opportunity to build 
a level of comfort with technology. While we talk a lot about how 
automation might impact the workforce, we talk less about how poor 
cyber hygiene and low tech literacy can present a real economic barrier 
to entry. Right now, studies show that the most vulnerable, under-
served among us--low-income, immigrants, or elderly populations--are 
the most likely to fall victim to an on-line scam or click on the wrong 
link. These mistakes can be costly, especially for someone on the 
margins. And, negative experiences like these may also lead many to 
steer clear of important on-line services--like on-line banking, health 
management tools, or even email. This response, left unchecked, will 
only serve to deepen economic divides and allow our most vulnerable 
populations to fall further behind. We have to confront this head-on, 
and I look forward to hearing from this panel on how we might do that. 
This is not a State or local problem, but a National one--and we should 
invest accordingly, at the Federal level.
    Ultimately, we cannot expect under-resourced, under-staffed State 
and local governments to defend their networks from state-sponsored 
hackers from Russia, China, and Iran. Toward that end, I am working on 
a comprehensive package to improve the cybersecurity posture of our 
State and local governments. I look forward to hearing from our 
witnesses today about opportunities to address this important National 
security issue.

    Mr. Richmond. With that, I now recognize the Ranking Member 
of the subcommittee, the gentleman from New York, Mr. Katko, 
for an opening statement.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you, all of our witnesses, for being here today. It 
is an important topic that couldn't possibly be more timely, as 
you all well know.
    Our State and local governments are prime targets for cyber 
attacks. A May 2019 report by Record Future found that 
ransomware attacks on State and local governments increased by 
39 percent in 2018 to 53 attacks. You know that all too well, 
Ms. Bottoms. In the first 4 months of 2019 alone, there have 
already been 21 attacks, including my home State of New York.
    In 2018, the National Association of State Chief 
Information Officers found that many States typically spend 
only 1 or 2 percent of their budgets on cybersecurity. Most 
employ fewer than 15 full-time cyber professionals. It is not 
surprising, particularly given the burgeoning budget challenges 
many State and local governments face and the talent pipeline 
issues we have discussed in previous hearings.
    It will take work on a collective level from Federal, 
State, and local governments, as well as outside stakeholders, 
to improve the situation. But it is clear that action is needed 
and needed now.
    This hearing today is an important step, and I commend the 
Chairman for convening it. I look forward to hearing from our 
witnesses about their ideas about how to help.
    I will soon introduce a bill, the State and Local 
Cybersecurity Improvement Act, which will direct the 
Cybersecurity and Infrastructure Security Agency, or CISA, 
within the Department of Homeland Security to develop a 
resource guide for State and local officials to navigate the 
challenges of protecting their networks.
    My bill will also create two new grant programs. The first 
is a one-time grant for State and local governments to identify 
their high-value assets and system critical architecture. To 
protect something, you must know it is worth protecting. The 
second grant program that will be part of this bill will help 
State and local governments conduct exercises to train, 
prepare, and evaluate their ability to respond to an attack.
    Working through an exercise allows a government to identify 
weaknesses in their current plan and establishes protocols and 
procedures to be prepared in the worst-case scenarios. My bill 
will help State and local governments be better prepared to 
defend their cyber networks. But the work we need to do to 
address this issue does not end with my bill. This is a 
collaborative effort. It is Democrats and Republicans. It is 
all of you at the table and everyone at every level of 
government. That is what we are going to need to attack this 
problem in an effective manner.
    I look forward to working with my colleagues on this issue 
moving forward, and I want to thank the Chairman and our 
witnesses for speaking with us today.
    Mr. Chairman, I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
                             June 25, 2019
    Our State and local governments are prime targets for cyber 
attacks. A May 2019 report by Record Future found that ransomware 
attacks on State and local governments increased by 39 percent in 2018, 
to 53 attacks. And in the first 4 months of 2019 alone, there have 
already been 21 attacks, including in my home State of New York.
    In 2018, the National Association of State Chief Information 
Officers found that many States typically spend only 1 to 2 percent of 
their budget on cybersecurity. Most employ fewer than 15 full-time 
cyber professionals.
    This is not surprising, given the budgeting challenges many State 
and local governments face and the talent pipeline issues we have 
discussed in previous hearings.
    It will take work from Federal, State, and local governments, as 
well as outside stakeholders, to improve this situation, but it is 
clear that action is needed.
    This hearing today is an important step, and I look forward to 
hearing from our witnesses about their ideas about how to help.
    I will introduce a bill, the State and Local Cybersecurity 
Improvement Act, which directs the Cybersecurity and Infrastructure 
Security Agency within the Department of Homeland Security, to develop 
a resource guide for State and local officials to navigate the 
challenges of protecting their networks.
    My bill also will create two new grant programs. The first is a 
one-time grant for State and local governments to identify their High-
Value Assets and system-critical architecture. To protect something, 
you must know what is worth protecting.
    The second grant program helps State and local governments conduct 
exercises to train, prepare, and evaluate their ability to respond to 
an attack. Working through an exercise allows a government to identify 
weaknesses in their current plan and establishes protocols and 
procedures to be prepared in case the worst happens.
    My bill will help State and local governments be better prepared to 
defend their cyber networks. But the work we need to do to address this 
issue does not end with my bill. I look forward to working with my 
colleagues on this issue.

    Mr. Richmond. The gentleman from New York yields back.
    I now recognize the Chairman of the full committee on 
Homeland Security for 5 minutes.
    Mr. Thompson. Good afternoon. I want to thank Chairman 
Richmond for holding today's hearing on an especially timely 
topic, the cybersecurity challenges in the State and local 
governments.
    Just last week, Riviera Beach, a small city in Florida, 
agreed to pay a $600,000 ransom demand after hackers crippled 
city computer systems. Unfortunately, Riviera Beach is not 
alone. Hackers have been wreaking havoc on cities from Atlanta 
to Baltimore to Albany, and actually many more. These bad 
actors range from unaffiliated cyber criminals to sophisticated 
state actors, including Iran, and their interest in breaching 
State and local networks is only growing.
    Since the Russian Government engaged in a historic campaign 
to meddling in the 2016 elections, officials at all levels of 
government have devoted time and resources to improve the 
security of election infrastructure. For its part, Congress 
appropriated $380 million, a down payment, for foreign grants 
to State and local election officials to replace unsecure 
election equipment, improve network security, and provide 
cybersecurity training to election officials. Additionally, for 
2 fiscal years, Congress has provided the Cybersecurity and 
Infrastructure Security Agency additional funding to provide 
cybersecurity services upon request to election officials.
    But administering elections is only one of the many 
important responsibilities carried out by State and local 
governments. These attacks that have come about have disrupted 
networks and local police departments, officers that process 
real estate transactions, and public health department, just to 
name a few.
    So I am looking forward to the testimony from our witnesses 
today. As a former mayor myself, I understand the problems 
cities have, and mayors more specifically. So I look forward to 
Mayor Bottoms' testimony. But I am also eager to hear from MS-
ISAC, which serves as the cyber threat information-sharing hub 
for State and local governments and spearheads State and local 
coordination on securing election infrastructure.
    Finally, I look forward to understanding the disperate 
impact of cybersecurity incidence on vulnerable populations and 
how the Federal Government can partner with State and local 
government to address them.
    I thank our witnesses for being here today, and I yield 
back the balance of my time.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 25, 2019
    Just last week, Riviera Beach--a small city in Florida--agreed to 
pay a $600,000 ransom demand after hackers crippled city computer 
systems. Unfortunately, Riviera Beach is hardly alone. Hackers have 
been wreaking havoc on cities from Atlanta to Baltimore to Albany. 
These bad actors range from unaffiliated cyber criminals to 
sophisticated state actors--including Iran--and their interest in 
breaching State and local networks is only growing. Since the Russian 
government engaged in a historic campaign to meddling in the 2016 
elections, officials at all levels of government have devoted time and 
resources to improve the security of election infrastructure. For its 
part, Congress appropriated $380 million--a down payment--to fund 
grants to State and local election officials to replace unsecure 
election equipment, improve network security, and provide cybersecurity 
training to election officials.
    Additionally, for 2 fiscal years, Congress has provided the 
Cybersecurity and Infrastructure Security Agency additional funding to 
provide cybersecurity services--upon request--to election officials. 
But administering elections is only one of the many important 
responsibilities carried out by State and local governments. So far 
this year, there have been over 20 reported cyber attacks against 
government agencies. These attacks disrupted networks in local police 
departments, offices that process real estate transactions, and public 
health departments, just to name a few. The impacts ranged from 
jeopardizing 9-1-1 calls, grinding real estate transactions to a halt, 
and preventing health officials from warning the public when a bad 
batch of illegal drugs causes overdoses. Unfortunately, the 
sophistication of hackers is outpacing the speed at which State and 
local governments can implement IT modernization programs and phase out 
legacy technologies. Moreover, the attack surface is growing as more 
jurisdictions are integrating ``smart city'' technologies into the 
execution and delivery of government services.
    As other sectors improve their cybersecurity posture, State and 
local governments struggling to keep pace with technology are becoming 
low-cost, high-value targets. It is time for the Federal Government to 
do more. Every year, States assess cybersecurity as one of the 32 core 
capabilities in which they are least proficient. At the same time, 
States rarely use their Homeland Security Grant to invest in 
cybersecurity as they stretch these funds to support traditional 
terrorism preparedness and response capabilities.
    Make no mistake, State and local governments need to invest in 
security, especially as they invest in smart city technology. But it is 
time to improve the way the Federal Government helps them. Toward that 
end, I am pleased that Mayor Keisha Lance Bottoms is here today to 
share the lessons learned from the ransomware attack in Atlanta and to 
understand how the Federal Government can better help victims prevent, 
respond to, and recover from cyber attacks. I am also eager to hear 
from the MS-ISAC, which serves as the cyber threat information-sharing 
hub for State and local governments, and spearheads State and local 
coordination on securing election infrastructure. Finally, I look 
forward to understanding the disparate impacts of cybersecurity 
incidents on vulnerable populations and how the Federal Government can 
partner with State and local governments to address them. Addressing 
the cybersecurity challenges ahead will require strong partnerships 
among all levels of government, and I am eager to understand how 
Congress can help ensure that Federal resources are most effectively 
leveraged.

    Mr. Richmond. The gentleman from Mississippi yields back.
    I now recognize Mr. Rogers, the Ranking Member of the full 
committee on Homeland Security, for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    I thank our witnesses for being here today, especially Mr. 
Cilluffo from Auburn University's McCrary Institute for Cyber 
and Critical infrastructure security located in my district.
    The McCrary Institute serves as an invaluable resource to 
our State and the Nation with its cybersecurity and critical 
infrastructure work. Cybersecurity is a tremendous challenge 
facing all levels of government.
    Our State level governments have seen first-hand through 
increased ransomware attacks that leave citizens without 
services and cities in panic. I am glad that our hearing today 
will discuss how Federal Government is already lending a 
helping hand and how we can improve the level of assistance.
    I appreciate Mr. Cilluffo highlighting the great work we 
are doing in Alabama to help address these issues, like the 
cyber magnet school to address the talent shortage, and the 
Alabama Security Operations Center, which provides centralized 
cybersecurity management for Alabama's State agencies. I had 
the honor of visiting there about a month ago; it was pretty 
impressive.
    In many ways, Alabama is setting the example for other 
States as we confront the challenges of cybersecurity.
    With that, I yield back, Mr. Chairman.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
    Thank you, Mr. Chairman.
    And thank you to our witnesses for being here today. Especially Mr. 
Cilluffo, from Auburn's McCrary Institute for Cyber and Critical 
Infrastructure Security in my district.
    The McCrary Institute serves as an invaluable resource to our State 
and the Nation with its cybersecurity and critical infrastructure work.
    Cybersecurity is a tremendous challenge facing all levels of 
government.
    Our State and local governments have seen that first-hand through 
increased ransomware attacks that leave citizens without services and 
cities in a panic.
    I am glad that our hearing today will discuss how the Federal 
Government is already lending a helping hand and how we can improve the 
level of assistance.
    I appreciate Mr. Cilluffo highlighting the great work we are doing 
in Alabama to help address these issues--like our Cyber Magnet School 
to address the talent shortage and the Alabama Security Operations 
Center, which provides centralized cybersecurity management for 
Alabama's State agencies.
    In many ways, Alabama is setting the example for other States as we 
confront the challenges of cybersecurity.
    Thank you Mr. Chairman. I yield back.

    Mr. Richmond. The gentleman from Alabama yields back.
    I would like to remind other Members of the subcommittee 
that, under the rules, opening statements may be submitted for 
the record.
    I want to welcome our panel of witnesses here today. First, 
I am very pleased to welcome Mayor Keisha Lance Bottoms of the 
city of Atlanta, Georgia, who oversaw the city's response to a 
major ransomware attack in March 2018. Under Mayor Bottoms' 
leadership, the city took a number of bold corrective actions 
to manage and mitigate damage and prevent future attacks.
    Thank you, Mayor, for your participation and your 
willingness to share the lessons you have learned in cyber 
incident response.
    Next, we have Mr. Thomas Duffy from the Center for Internet 
Security, who is currently serving as the chair of the Multi-
State Information Sharing Analysis Center, MS-ISAC. The MS-ISAC 
serves as an important partner and liaison between DHS and 
State and local officials when it comes to sharing information 
and coordinating around cyber threats. I look forward to 
hearing his insights on how we might tackle this problem.
    Next, we also have Mr. Ahmad Sultan, who is here today in 
his personal capacity to discuss the research conducted while 
serving at UC Berkeley's Center for Long-Term Cybersecurity. 
His research focused on how underserved residents, including 
low-income residents, seniors, and foreign language speakers, 
face higher than average risk of becoming victims of cyber 
attacks and are less equipped to respond. I am sure that his 
comments will shed light on an important area of cybersecurity 
that is typically overlooked.
    Last but certainly not least, I would like to welcome Mr. 
Frank Cilluffo, the director of the McCrary Institute for Cyber 
and Critical Infrastructure at Auburn University. Mr. Cilluffo 
previously served as a Presidential appointee in the Department 
of Homeland Security, as an adviser to former director Tom 
Ridge. He has also testified before this committee and 
elsewhere on the Hill dozens of times.
    Welcome back to the committee, Mr. Cilluffo, and thank you 
for your testimony.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with you, the Honorable Keisha Lance 
Bottoms.

   STATEMENT OF KEISHA LANCE BOTTOMS, MAYOR, CITY OF ATLANTA

    Ms. Bottoms. Good afternoon. My name is Keisha Lance 
Bottoms, and I am the mayor of Atlanta, Georgia, the cradle of 
the civil rights movement and the 10th largest economy in the 
United States. Thank you to Chairman Richmond and to Chairman 
Thompson and to each of you for having me here today. It is an 
honor to join you.
    In the early morning hours of March 22, 2018, 77 days into 
my term as mayor and only 4 days into the tenure of our new 
COO, Atlanta's government experienced a ransomware cyber attack 
which impacted our operations and our ability to provide 
services to our residents and our visitors.
    To paint a broader picture of that day, the city of Atlanta 
has nearly 9,000 employees, and it goes without saying that 
many rely on technology to do their jobs and to keep the city 
running. We were incapacitated.
    Fortunately, our daily mission-critical services, such as 
fire, police, and ambulance, were not severely impacted, and 
neither was our water supply. However, some departments and 
government entities suffered irreparable damage, including our 
police department which lost stored dash cam video footage. The 
Atlanta Municipal Court had to cancel and reschedule hearings. 
Our customer service interface, known as ATL311, was knocked 
off-line. Many other applications were impacted or affected, 
delaying the delivery of city services.
    As the first day unfolded, it became clear to us that 
criminals had attacked the city's computer systems, and we 
moved quickly to mitigate those circumstances. The first few 
hours of the attack were critical for limiting damage and 
determining our steps going forward. We notified law 
enforcement and key partners, including our insurance carrier, 
our government partners, the media, and the public.
    We also needed to learn in detail what systems, functions, 
and operations were impacted. That may sound simple, but during 
an emergency, the process of identifying every compromised 
system was challenging, especially without the assistance of 
technology.
    Out of an abundance of caution, we took some systems off-
line and hired an outside security firm to assist with our 
response. We soon discovered that attackers were demanding a 
ransom payment of $51,000 in bitcoins to unlock our systems. We 
refused to pay.
    The cost of recovery, to date, has been approximately $7.2 
million, and that number is still climbing. Some costs have 
been reimbursed under our cyber insurance policies, which, 
thankfully, for the first time, we had obtained just a few 
months before the attack.
    Last November, Federal authorities charged two Iranians 
with the attack and outlined their massive scheme to breach 
computer networks of local governments, health care systems, 
and other public entities.
    Our cyber attack was not unique. Digital extortion is now a 
common occurrence affecting many organizations in the public 
and private sectors, and cyber threats are becoming much more 
hostile and frequent. We must continue to understand how to 
protect ourselves against these attacks when they occur.
    The good news is that Atlanta is rebounding from this 
attack and sharing its experience with other cities. But the 
reality is that, as elected officials, we often make 
investments in infrastructure that people can see. In my nearly 
2-year campaign for mayor, not once did a constituent ask me 
about my investment in cybersecurity.
    Following our unfortunate experience, we have been advising 
other cities to help them better understand the continuity 
measures that are needed. We are adopting a more flexible and 
hardened infrastructure using advanced technologies and the 
cloud to diversify and minimize our risk. We are also 
emphasizing the importance of cross-functional response teams, 
including our Federal and State government partners.
    But no city can do this effectively without strong 
partnerships. Through our process, Atlanta has worked with the 
FBI, Department of Homeland Security, the Secret Service, and 
the private sector. The work we did to prepare for the Super 
Bowl earlier this year is a great example of that 
collaboration. We are staying proactive so that we can 
understand and better manage this ever-changing landscape.
    We have also learned that you can never completely protect 
your computer network. Quite frankly, that remains our biggest 
challenge. Atlanta is more prepared and resilient than ever, 
but we continue to need strong partnerships. Many cities, 
especially small cities, simply lack the resources needed to 
develop the safety net that is needed to protect against these 
attacks.
    The Federal Government should also expand programs that 
share real-time threat information, which is often critical in 
avoiding and mitigating threats. Also, we should have Federal 
programs in place to provide cybersecurity disaster relief 
funding that will help offset some of these costs. Last, we 
need your help to ensure the safety and security of the 
electoral process as city and State governments administer the 
elections that are the foundation of our democracy.
    With the support and assistance of partners such as the 
Department of Homeland Security and this distinguished 
committee, all of our cities and our country can be safer and 
better prepared.
    Thank you.
    [The prepared statement of Ms. Bottoms follows:]
               Prepared Statement of Keisha Lance Bottoms
                             June 25, 2019
    Good afternoon. My name is Keisha Lance Bottoms and I am the mayor 
of Atlanta, Georgia, the cradle of the Civil Rights Movement and the 
anchor of the 10th-largest economy in the United States.
    I want to thank Chairman Bennie Thompson and Subcommittee Chairman 
Cedric Richmond for inviting me today to testify at this important 
hearing. I am honored to be here.
    In the early morning hours of Thursday, March 22, 2018--77 days 
after I was sworn in as the 60th Mayor of Atlanta--the city experienced 
a ransomware cyber attack which impacted our operations and our ability 
to provide services to our residents and visitors.
    Fortunately, mission-critical services such as fire, police, and 
ambulance services, and our water supply, were not affected.
    However, some departments and governmental entities suffered 
irreparable damage.
    The Atlanta Municipal Court had to cancel and reschedule hearings, 
suffering a major interruption. ATL311, our customer service interface 
for our residents, was knocked off-line.
    Many other applications were impacted or affected, delaying the 
provision of services by the city.
    As that first day unfolded and the city learned more details about 
the disruption, it became clear to us that criminals had attacked the 
city's systems.
    As this committee knows, one of the most common and successful ways 
that criminals can attack entities is through phishing. Phishing scams 
use social engineering to trick a user into clicking on a link which 
can then infect the system with malware. Depending on the malware used, 
it can take over and encrypt the user's computer. Ransomware can also 
delete or permanently corrupt files and destroy them forever, something 
we experienced in Atlanta.
    The city of Atlanta moved quickly to address the impacts and to 
mitigate the attack, notifying law enforcement and key partners, 
including our insurance carrier, outside counsel, Government partners, 
and the media. We also hired an outside cybersecurity firm to assist 
with our response.
    While like other crimes, in the case of a cybersecurity attacks, it 
can take days and even months to fully understand the depth and breadth 
of what may have been impacted.
    The city assessed which systems, functions, and operations were 
impacted. That might sound simple, but during an emergency, identifying 
every compromised system was difficult to accomplish, especially 
without the assistance of technology.
    Although the overall impact was not substantial throughout our 
infrastructure, we took some systems off-line out of an abundance of 
caution.
    The city soon learned that the attackers were demanding a ransom 
payment of $51,000 in Bitcoin to unlock our systems, which we refused 
to pay.
    The cost of recovery to date has been about $7.2 million and we 
expect it will go higher.
    Some costs have been reimbursed under Atlanta's cyber insurance 
policies, with the hope that more will be reimbursed.
    However, cyber insurance policies vary greatly, and not all 
policies cover the wide-ranging impacts that a cyber attack can do to a 
company or a city. It is critical to seek expert advice and counsel to 
ensure that the policies purchased can cover the damages that can be 
sustained.
    As this committee knows, in November 2018, the U.S. Department of 
Justice charged two Iranians with the attack and outlined the wide-
ranging plan they crafted to attack countless local governments, health 
care systems, and other public entities.
    Unfortunately, the city of Atlanta's cyber attack was not an 
isolated occurrence. As organizations integrate technology into every 
aspect of our lives, cybersecurity risk is ever present. If not 
secured, systems across public and private entities will continually be 
subject to attack and digital extortion.
    Cities such as Savannah, Georgia; Dallas, Texas; and Baltimore, 
Maryland have been attacked. The attack in Baltimore affected its 9-1-1 
system, which further underscores how these attacks threaten the actual 
health and safety for each of us.
    Cyber threats are becoming more hostile and frequent, so all 
organizations must understand how to protect themselves against these 
attacks when they do occur.
    The good news is that the city of Atlanta is using its experience 
to become a ``model city'' for how municipalities can protect against, 
and prepare for, cyber attacks.
    We are adopting a more flexible and hardened infrastructure by 
utilizing advanced technologies in order to diversify and minimize 
risk.
    We are emphasizing the importance of cross-functional incident 
response teams that include Federal and State government partners.
    We are strengthening our human capital to make certain that the 
best and the brightest are guarding our systems.
    We are in a good place going forward. Atlanta and the State of 
Georgia represent one of the Nation's elite cybersecurity hubs, ranking 
third in the Nation with companies that focus on information security, 
and generating more than $4.7 billion in annual revenue.
    More than 115 cybersecurity firms call Georgia home, including 
Cybersecurity 500-ranked Secureworks, Pindrop, NexDefense, and Ionic 
Security.
    Based on the city's ``lessons learned'' we can now help other 
cities to take cybersecurity seriously and plan to put in place manual 
processes for mission-critical applications and services to 
specifically address cyber risks.
    This includes ensuring cities have carried out a thorough risk 
assessment of their systems, including both infrastructure and business 
practices.
    No city can do this effectively without partnerships. The city of 
Atlanta has worked with the FBI, the Department of Homeland Security, 
the Secret Service, and the private sector. The work done to prepare 
for Super Bowl LIII (53) was a great example of these collaborative 
efforts.
    The priority at the city of Atlanta is to build a culture of 
cybersecurity where all our technology experts and partners are around 
the table.
    We intend to stay pro-active in order to understand and manage the 
ever-evolving landscape.
    We are re-focusing on operational basics--Detection, Response, and 
Recovery.
    On detection, we need to be able to quickly identify anomalies and 
potential issues; on response, once a problem is identified, we need to 
rapidly seek to contain the risk; and on recovery, we will better 
understand the impacts of an attack and have cyber-specific recovery 
and business-continuity plans in place ready to be deployed 
immediately.
    One component of a ``down to the basics'' plan is to have an on-
going program to educate employees and help them identify a phishing 
email; as well as require the use of strong passwords, and prioritize 
funding and empower cyber leadership, as we have done in Atlanta.
    Regardless of the protective measures that are employed, 
cybersecurity risks are now part of our everyday lives. We've learned 
that you can never completely protect a computer network.
    But there are steps that can be taken.
    For example, cities should establish clear processes and be ready 
to implement their cyber incident-response plan, just as they do in 
anticipation of other emergencies.
    While the city of Atlanta is more prepared and more resilient, many 
local and State governments are not, and need the help of the Federal 
Government.
    Specifically, the Federal Government can help by passing 
legislation and providing funding to assist State and local governments 
in preventing, preparing for, and responding to cyber threats and 
incidents. It is also important to emphasize the need for the Federal 
Government to provide emergency funding and support during an actual 
cyber attack. Having access to funds at the time of an attack would not 
only accelerate responsiveness and restoration; but, would also result 
in fewer municipalities paying ransoms and ultimately decrease the 
occurrence of local governments as targets.
    Second, the Federal Government can assist by empowering its 
agencies to develop and share best practices with State and local 
governments. Many small municipalities do not have the resources 
necessary to development and implement these best practices.
    Third, the Federal Government should expand its programs that share 
real-time threat information with State and local governments as this 
information is often critical in avoiding or mitigating threats.
    Next, when an attack does occur, the Federal Government should have 
programs in place to provide cybersecurity disaster relief funding to 
help offset recovery and restoration costs borne by State and local 
governments.
    Last, many State and local governments administer elections and 
need help in ensuring the safety and security of the electoral process.
    We are living in a different digital world now. Nation-state actors 
and other foreign adversaries are attacking our State and local 
governments and we need a strong Federal partner to defend against 
those threats.
    We know the threats will continue. What we're planning for today 
may look different tomorrow.
    With the support and assistance of partners such as the U.S. 
Department of Homeland Security and this distinguished committee, all 
our cities, and our country, can be safer by being prepared.
    Thank you.

    Mr. Richmond. Thank you, Mayor Bottoms, for your testimony.
    I now want to recognize Mr. Duffy to summarize his 
statement for 5 minutes.

   STATEMENT OF THOMAS DUFFY, CHAIR, MULTI-STATE INFORMATION 
SHARING AND ANALYSIS CENTER (MS-ISAC), SENIOR VICE PRESIDENT OF 
            OPERATIONS, CENTER FOR INTERNET SECURITY

    Mr. Duffy. Thank you.
    Chairman Thompson, Chairman Richmond, and Ranking Member 
Katko, and Members of the subcommittee, thank you for inviting 
me here today. My name is Thomas Duffy, and I am the chair of 
the Multi-City Information Sharing and Analysis Center, or MS-
ISAC, which is operated by the Center for Internet Security.
    We have a cooperative agreement with the Department of 
Homeland Security to work with State, local, Tribal, and 
territorial governments across the country. We serve as a focal 
point for cyber prevention, protection, response, and recovery 
of the Nation's State, local, Tribal, and territorial 
governments.
    I have spent my career in service to State and local 
governments, including the past 15 years with the MS-ISAC. 
Today, I will discuss the current level of cyber maturity in 
State and local governments, the major security concerns, and 
the recommendations on how the Federal Government can help.
    Membership in the MS-ISAC and the more recently created 
Elections Infrastructure ISAC has tripled in the past year-and-
a-half, which is a clear indication that the State and local 
governments have a growing need for assistance, guidance, and 
support. We conduct an annual cybersecurity maturity assessment 
called the Nation-wide Cybersecurity Review, which measures the 
gaps and capabilities of cyber programs of the State and local 
governments.
    So what have we learned from these annual reviews? We have 
learned that the States continue to report higher overall 
maturity scores than the local counterparts. Not surprising. 
While improvements have been noted, there is still much to be 
done at all levels of government.
    We have also learned that the same top 5 security concerns 
dominate this discussion year after year. No. 1 concern in 2018 
was lack of sufficient funding; No. 2 was the increasing 
sophistication of threats; No. 3 was the lack of documented 
processes; No. 4 was emerging technologies; and No. 5, as 
mentioned earlier, is the inadequate supply of cybersecurity 
professionals.
    Addressing these challenges requires resources as well as 
State and National strategies. We need to increase a pool of 
cybersecurity professionals, plan for investments in our IT 
infrastructure, and secure that security is built into the 
products and services.
    So what can the Federal Government do to assist? First, let 
me note that DHS has been very supportive and proactive in 
addressing the increasing cyber challenges faced by State and 
local governments, especially in the election sector. There are 
two areas I would recommend for cyber support, one that 
requires funding, which you are used to, and one that only 
requires some interagency cooperation, which would be nice to 
see.
    First, the Federal Government should consider establishing 
a dedicated State and local cybersecurity grant program. When 
the initial Homeland Security grants were created, 
cybersecurity threat is not what it is today. Most of the funds 
were dedicated to antiterrorism activities, which was 
appropriate. Over time, the grant funds have decreased while 
the cyber threat has expanded exponentially, and the terrorism 
threat still exists. Thus, there is a smaller pool of funding 
for a much larger pool of threats. More money is going to 
sustain activities, leaving less money for new initiatives.
    I would suggest if a cyber grant program is established, 
priority be given or funds set aside to programs that support 
State and local partnerships. Leveraging the combined resources 
of State and local partnerships will serve as a force 
multiplier. Really, you get the value out of the funds.
    Second, the Federal Government should adopt a single audit 
approach when auditing State programs for compliance with 
security guidelines with the cognizant Federal agencies. In 
1984, the Single Audit Act was passed, which proved to be a 
cost-effective method to audit non-Federal entities. Once one 
audit is conducted in lieu of multiple audits of individual 
programs, then the single audit standard is applied. The same 
should apply to cybersecurity audits of State programs by 
Federal agencies. This would save resources, both at the State 
level and the Federal level, resources that could be reinvested 
to improving our cybersecurity posture.
    While State and local governments have made progress in key 
areas, so have our adversaries. The dizzying array of 
cybersecurity requirements has made it difficult to develop 
effective programs, a lack of funding stalls progress, and a 
lack of capable talent compounds the negative impacts of 
ransomware and other attacks. We must do better.
    In closing, our success or failure will be determined on 
our ability to work together at all levels of government to 
evade, counter, or neutralize the endless risk that State and 
local governments face. Each of these efforts requires 
resources--time, money, and energy--that are currently in short 
supply. If we are to make the progress required of us in 
meeting our collective missions, we must work together on this 
National problem.
    I thank you for the opportunity to address the subcommittee 
today.
    [The prepared statement of Mr. Duffy follows:]
                   Prepared Statement of Thomas Duffy
                             June 25, 2019
    Chairman Thompson, Chair Richmond, Ranking Member Katko, and 
Members of the subcommittee, thank you for inviting me today to this 
hearing. My name is Thomas Duffy and I serve as the senior vice 
president of operations and security services at the Center for 
Internet Security, a global nonprofit focused on improving 
cybersecurity for public and private organizations. I also serve as the 
chair of the Multi-State Information Sharing and Analysis Center (MS-
ISAC), which is the focal point for cyber threat prevention, 
protection, response, and recovery for the Nation's State, local, 
Tribal, and territorial governments as well as all 79 Fusion Centers.
    I have spent my career in service to State and local governments, 
including the past 15 years with the MS-ISAC. I appreciate the 
opportunity today to share our thoughts on the current state of 
cybersecurity in State and local governments, focusing on how the 
Federal Government can help. I look forward to offering ideas on how we 
can collectively build on the progress being made to secure the State 
and local government cyber infrastructure.
    In short, I will: (1) Introduce you to the current level of cyber 
maturity in and local governments (2) the major challenges faced by and 
local governments and (3) recommendations on how the Federal Government 
can help.
           about center for internet security and the ms-isac
    The Center for Internet Security's (CIS') was established in 2000 
as a nonprofit organization and its primary vision is to lead the 
global community to secure our connected world through the 
identification, development, validation, information sharing, and 
sustainment of best practice solutions for cyber defense. CIS was 
instrumental in establishing the first guidelines for security 
hardening of commercial IT systems at a time when there was little 
security standards, best practices, or leadership.
    The MS-ISAC was formed in 2004 under the auspices of the State of 
New York, and transitioned to CIS in 2010. The Elections Infrastructure 
Information Sharing and Analysis Center (EI-ISAC) was formed in 2018, 
in response to the need to have a dedicated focus on protecting our 
Nation's election infrastructure.
    Today, CIS works with the global security community using 
collaborative deliberation processes to define security best practices 
for use by Government and private-sector entities. The approximately 
200 professionals at CIS provide cyber expertise in three main program 
areas: (1) The Multi-State and more recently the Elections 
Infrastructure Information Sharing and Analysis Center, the MS-ISAC and 
EI-ISAC respectively; (2) the CIS Benchmarks; and (3) the CIS Critical 
Security Controls. I describe each briefly below.
    MS-ISAC.--\1\In 2010, the U.S. Department of Homeland Security 
(DHS), under the then-National Protection and Programs Directorate 
(NPPD), partnered with CIS to host the MS-ISAC, which has been 
designated by DHS as the focal point for cyber threat prevention, 
protection, response, and recovery for the Nation's State, local, 
Tribal, and territorial governments as well as all 79 Fusion Centers 
Nation-wide. MS-ISAC members include all 56 States and territories and 
more than 5,000 other State and local government entities. MS-ISAC's 
24x7 cybersecurity operations center provides: (1) Cyber threat 
intelligence that enables MS-ISAC members to gain situational awareness 
and prevent incidents, consolidating and sharing threat intelligence 
information with the DHS National Cybersecurity and Communications 
Information Center (NCCIC); (2) early warning notifications containing 
specific incident and malware information that might affect them or 
their employees; (3) IP and domain monitoring (4) incident response 
support; and (5) various educational programs and other services. 
Furthermore, MS-ISAC provides around-the-clock network monitoring 
services with our so-called ``Albert'' network monitoring sensors for 
many State and local government networks, analyzing over 1 trillion 
event logs per month. Albert is a cost-effective Intrusion Detection 
System (IDS) that uses open-source software combined with the expertise 
of the MS-ISAC 24x7 Security Operations Center (SOC) to provide 
enhanced monitoring capabilities and notifications of malicious 
activity. In 2018, MS-ISAC analyzed, assessed, and reported on over 
56,000 instances of malicious activity to over 6,000 MS-ISAC members.
---------------------------------------------------------------------------
    \1\ Find out more information about the MS-ISAC here: https://
msisac.cisecurity.org/. List of MS-ISAC services here: https://
www.cisecurity.org/wp-content/uploads/2018/02/MS-ISAC-Services-Guide-
eBook-2018-5-Jan.pdf.
---------------------------------------------------------------------------
    EI-ISAC.\2\.--In 2018 CIS was tasked by DHS to stand up an 
information sharing and analysis center focused on the Nation's 
elections infrastructure. Leveraging the resources of the MS-ISAC, CIS 
established the Elections Infrastructure Information Sharing and 
Analysis Center (EI-ISAC). The EI-ISAC is now fully operational with 
all 50 States participating and over 1,700 total members, including 
elections vendors. The EI-ISAC provides elections officials and their 
technical teams with regular updates on cyber threats, cyber event 
analysis, and cyber education materials. During the 2018 primaries and 
mid-term elections the EI-ISAC hosted the National Cyber Situational 
Awareness Room, an on-line collaboration forum to keep elections 
officials aware of cyber and non-cyber incidents and potential cyber 
threats. More than 600 elections officials participated in these 
forums. Moreover, the MS-ISAC was processing data from 135 Albert 
sensors monitoring the networks, which supported on-line elections 
functions such as voter registration and election night reporting. The 
Albert sensors processed 10 petabytes of data during 2018, resulting in 
over 3,000 actionable notifications to elections offices.
---------------------------------------------------------------------------
    \2\ A list of EI-ISAC services can be found here: https://
www.cisecurity.org/ei-isac/ei-isac-services/.
---------------------------------------------------------------------------
    CIS Benchmarks.--CIS is also the world's largest producer of 
authoritative, community-supported, and automatable security 
configuration benchmarks and guidance. The CIS Security Benchmarks 
(also known as ``configuration guides'' or ``security checklists'') 
provide highly-detailed security setting recommendations for a large 
number of commercial IT products, such as operating systems, database 
management systems, virtual private cloud environments, and for most of 
the major vendors network appliances. These benchmarks are vital for 
any credible security program. The CIS Security Benchmarks are 
developed though a collaborative effort of public and private-sector 
security experts. Over 200 consensus-based Security Benchmarks have 
been developed and are available in PDF format free to the general 
public on the CIS or NIST web site. An automated benchmark format along 
with associated tools is also available through the purchase of a 
membership. CIS has also created a number of security configured cloud 
environments, called ``hardened images'' that are based on the 
benchmarks that we are deploying in the Amazon, Google, and Microsoft 
cloud environments. These hardened images help ensure that cloud users 
can have confidence in the security provided within the cloud 
environment they select. The CIS-hardened images are used world-wide by 
organizations ranging from small, nonprofit businesses to Fortune 500 
companies.
    The CIS Security Benchmarks are referenced in a number of 
recognized security standards and control frameworks, including:
  <bullet> NIST Guide for Security-Focused Configuration Management of 
        Information System
  <bullet> Federal Risk and Authorization Management Program (FedRAMP) 
        System Security Plan
  <bullet> DHS Continuous Diagnostic Mitigation Program
  <bullet> Payment Card Industry (PCI) Data Security Standard v3.1 
        (PCI) (April 2016)
  <bullet> CIS Critical Security Controls.
    CIS Controls.--\3\In 2015, CIS became the home of the CIS Critical 
Security Controls, previously known as the SANS Top 20, the set of 
internationally-recognized, prioritized actions that form the 
foundation of basic cyber hygiene and essential cyber defense ground 
truth. They are developed by an international consensus process and are 
available free on the CIS web site. The Critical Security Controls or 
just the CIS Controls have been assessed as preventing up to 90 percent 
of pervasive and high risks cyber attacks.\4\ The CIS Controls act as a 
blueprint for system and network operators to improve cyber defense by 
identifying specific actions to be done in a priority order--achieving 
the goals set out by the NIST Cybersecurity Framework (CSF). Moreover, 
the CIS Controls are specifically referenced in the NIST CSF as one of 
the tools to implement an effective cybersecurity program.\5\
---------------------------------------------------------------------------
    \3\ Find out more information about the CIS Controls and download 
them for free here: https://www.cisecurity.org/critical-controls.cfm.
    \4\ Up to 91 percent of all security breaches can be auto-detected 
when release, change, and configuration management controls are 
implemented. IT Process Institute: https://www.sans.org/cyber-security-
summit/archives/file/summit-archive-1533052750.pdf.
    \5\ NIST Framework, Appendix A, page 20, and throughout the 
Framework Core (referred to as ``CCS CSC''--Council on Cyber Security 
(the predecessor organization to CIS for managing the Controls) 
Critical Security Controls).
---------------------------------------------------------------------------
    The MS-ISAC, and more recently the EI-ISAC, are operated pursuant 
to a Cooperative Agreement with Department of Homeland Security. 
Members include all 50 States, all 50 State election directors, almost 
6,000 local governments, 88 Tribal governments, all 5 U.S. territories 
and the District of Columbia. Local government members represent over 
80 percent of the U.S. population.
     cybersecurity challenges faced by state and local governments
    Cyber protections at all levels of government are critical, and 
central to the fiduciary responsibility to protect the data that is 
entrusted to Government by our citizens and businesses. Local 
governments connect to State governments, State governments connect to 
the Federal Government. All levels of government have a shared 
responsibility for safeguarding information. Data on citizens is 
tracked from cradle to grave, from the issuance of your birth 
certificate, to the filing your death certificate.
    Regarding the question ``has the cybersecurity posture of and local 
governments improved?''--the answer is yes. There are, however, other 
related and equally important questions that should be asked. If the 
question is ``have and local governments kept pace with advancing 
threats and the rapidly expanding cyber infrastructures that need to be 
protected?'', the answer is probably not. If the question is ``are 
State and local governments prepared to build, maintain, and evolve 
their cybersecurity programs commensurate with the risks that they will 
face in the future?'', the answer is again, probably not. Both State 
and local governments continue to make news for ransomware, cyber 
crime, and other cybersecurity-related issues every week.
    The cyber threat landscape continues to evolve faster than our 
preparedness activities and protective measures, and the number of 
entry points to our systems continues to grow at an accelerated rate. 
We are constantly playing a game of catch up. There is no silver bullet 
to solve the problem. Software providers continue to issue patches for 
system vulnerabilities daily! Keeping up with this is an enormous 
challenge for all organizations, large and small.
    The MS-ISAC conducts an annual cybersecurity maturity assessment, 
called the Nation-wide Cybersecurity Review (NCSR), of State and local 
governments. The NCSR, based on the NIST Cybersecurity Framework, is a 
self-assessment tool developed by CIS in concert with State and local 
cybersecurity professionals.
    What have we learned from the annual NCSR over the past few years?
    The assessment uses a scale of 1-7 to measure cybersecurity 
maturity, and establishes a score of 5 as the minimum-security level 
organizations should strive for. The State average in 2018, was 4.7, 
with 44 percent States achieving the baseline of 5. The local 
government average is 3.4, with only 18 percent achieving the baseline 
minimum of 5. There have been improvements over time, with the States 
improving by 5 percent over the past 3 years and local governments 
improving by 17 percent. States on average report higher maturity 
scores than local governments. While improvements have been noted, 
there is much that still needs to be done, especially at the local 
government level.
    One constant finding of the NCSR has been the top 5 security 
concerns, which remain unchanged for the past 5 years, the only 
difference being that the order of priority has changed every year. The 
top 5 concerns in 2018 were:
    1. Lack of sufficient funding.--State and local governments 
        struggle with balancing operational needs to improve their IT 
        infrastructure and providing adequate cyber defense 
        simultaneously. Threat actors continually attacking State and 
        local governments with ransomware and breaching their legacy 
        defense mechanisms to steal private data, causing an increase 
        need to provide incident response, improve IT network defense, 
        and reprioritize budgets to implement security best practices 
        and security controls that often require major operating system 
        and proprietary software migrations. The cybersecurity budget 
        must to compete with other programs, such as education, 
        infrastructure like roads and bridges, health care and law 
        enforcement, for funding. The value of security investments is 
        not obvious to public. Public officials don't run on a platform 
        of ``I am going to upgrade our IT infrastructure!''. It is only 
        after it is too late, that they realize a missed opportunity to 
        prevent a major compromise, that requires a major investment in 
        cybersecurity.
    2. Increasing sophistication of threats.--It is no secret that 
        threat actors, threat groups, and/or advanced persisted threats 
        funded by nation states to carry out cyber espionage are 
        increasing. Sophisticated malware like Emotet, which 
        ``reinvents'' itself weekly to avoid detection by traditional 
        defenses, is a good example of the bad guys making cyber 
        defense a 24x7x365 job. In addition, threat actors are using 
        realistic and effective spear phishing and phishing campaigns 
        to gain access to State and local government systems and end-
        users' workstations and mobile devices.
    3. Lack of documented processes.--Mature organizations have 
        formally documented policies, standards, and procedures. 
        Implementation is tested, verified, and reviewed regularly to 
        ensure continued effectiveness. This not found in most State 
        and local governments. Many processes in managing government 
        systems remain ad hoc. This is well-documented in the NCSR. The 
        priorities are to ``keep the lights on'', respond to 
        emergencies, managing new projects, roll out new technologies, 
        etc. One of the enhancements planned for 2019 in the NCSR is to 
        included links to policies and standards where this is 
        identified as a need in the NCSR submission. However, resources 
        will be required to implement the policies and standards and 
        ensure they are tested, verified, and reviewed regularly.
    14. Emerging technologies.--The future is now. Major urban areas 
        are in the progress of building 5G communications 
        infrastructures to support the rapidly growing need for 
        connectivity to support autonomous vehicles, data streaming 
        services, consumer electronics, and smart devices. IoT devices 
        are now finding their way into daily government operations. 
        HVAC systems are now connected to the internet as are medical 
        devices. Drone technology is being deployed across all levels 
        of government. Each of these technologies require organizations 
        to expand the scope of protective measures that need to be 
        implemented, tested, and verified regularly. They also 
        introduce new opportunities for attackers to exploit networks 
        looking for vulnerabilities or lapses in security. Status quo 
        will not protect your network. The defenses need to continually 
        evolve. We must proactively put in place security measures that 
        effectively defend against current and future cyber threat 
        attacks.
    5. Inadequate supply of security professionals.--The NCSR clearly 
        highlights what is a National problem--the shortage of skilled 
        cybersecurity professionals. This impact of this lack of talent 
        is even more impactful for State and local governments entities 
        due to lower pay. State and local governments are at a major 
        disadvantage in recruiting cybersecurity professionals. Vacant 
        positions mean some critical work may not be accomplished.
    Each year, the DHS issues a National Preparedness Report on the 
challenges that all organizations, public and private, face in 
preparedness. It includes a capabilities assessment in 32 core areas 
reported by every State. The 2018 report noted:
    1. Cyber threats are a rapidly-evolving threat, joining nation-
        state threats and terrorism as an area of significant public 
        concern.
    2. Since 2012, States and territories have consistently reported 
        cybersecurity as their least proficient capability.
    Just this past weekend CISA reported on ``a recent rise in cyber 
activity directed at United States industries and government agencies 
by Iranian regime actors and proxies.'' Improving our cybersecurity 
posture will take time. We must act now.
             recommended actions for the federal government
    Addressing these challenges requires resources as well as State and 
National strategies. We need to: Increase the pool of cybersecurity 
professionals, plan for investments in our IT infrastructure, and 
ensure that security is built into products and services.
    What can the Federal Government do to assist State and local 
governments?
    DHS has been very supportive in addressing the increasing 
challenges of State and local governments posed by expanding cyber 
threats, including funding of the Multi-State ISAC and Election 
Infrastructure ISAC, allowing State and local governments to 
participate in the Federal Virtual Training Environment (FedVTE), 
allowing State and local governments to participate the Scholarship for 
Service Program sponsored by the National Science Foundation. It has 
also developed the National Cybersecurity and Technical Services 
program that provides network scanning and penetration testing among 
its many service offerings. It has been very active in improving the 
security of our Nation's election infrastructure and developing and 
sponsoring local, State, and National cyber exercises. A National-level 
election exercise sponsored by DHS last week.
    There are two areas that I would recommend consideration be given 
to additional Federal cyber support to the State and local community.
    First, DHS should establish a dedicated State and local government 
cybersecurity grant program. When the initial Homeland Security Grant 
programs were created, the cybersecurity threat was not what it is 
today. Most of the funds were dedicated to anti-terrorism efforts, as 
was appropriate. Over time the grant funds have decreased, while cyber 
threat has expanded exponentially and the terrorism threat still 
exists. Thus, a smaller pool of funding is available for a large pool 
of threats. More money is going to sustain activities, leaving less 
money for new initiatives. If a cyber grant program is established, 
priority should be given, or funds set aside, to programs that support 
State and local partnerships. Leveraging the combined resources of 
State and local governments will serve as force multiplier. There are 
several great examples of State and local partnerships including the 
Wisconsin Cyber Response Team that was organized by the State to 
recruit local government staff to be regional cyber incident responders 
for local governments. Local government staff that met minimum 
qualifications were chosen to be part of the regional teams and 
received advance training by the State, that led to led to incident 
response certifications. The regional teams have responded to over 30 
incidents since its inception.
    Second, the Federal Government should adopt a ``single audit'' 
approach when auditing State programs for compliance with the security 
guidelines of the cognizant Federal agencies. In 1984, the Single Audit 
Act was passed. The Act refers to a ``single audit'' because it 
consolidated multiple audits of non-Federal agencies required for each 
award into a single audit. The stated purpose was to promote sound 
financial management of Government funds by non-Federal organizations, 
promote uniform guidelines for audits, and reduce the burden on 
nonprofits by promoting efficient and effective use of audit resources. 
It proved to be a cost-effective method audit of non-Federal entities. 
One audit is conducted in lieu of multiple audits of individual 
programs and single audit standard is applied. The same should apply to 
the security audits of State programs by Federal agencies.
    The following are some of the Federal agencies that audit State 
systems: Centers for Medicare & Medicaid Services, Internal Revenue 
Service, Social Security Administration, Department of Agriculture, and 
Department of Health and Human Services. Although the compliance/audit 
requirements are often based on NIST SP 800-53, they vary in the amount 
of time required by the State to meet the requirements. For example, 
some Federal agencies send an on-site audit team to the State to review 
security controls while other Federal agencies rely on the completion 
of a written questionnaire. Regardless, there are multiple audits being 
conducted that duplicate each other, and place a drain on scarce State 
resources dedicated to protecting State systems. Let these resources be 
freed up to develop and implement new cyber protective measures. The 
``single audit'' concept would create savings for both the Federal and 
State governments, savings that could be re-invested to enhance their 
cybersecurity posture.
                                closing
    Defending our Nation from rapidly-advancing cyber threats has 
become a critical, yet incredibly difficult task. The overwhelming 
vulnerability inherent in the ``internet of everything'' caught us off 
guard, forcing most organizations into reactive mode, and the asymmetry 
of cyber warfare ensures that the good guys are always at a 
disadvantage. All this while we increasingly rely on a safe, secure, 
and trustworthy internet to do everything from ordering groceries to 
ordering drone strikes.
    And while State and local governments have made progress in key 
areas, so have our adversaries. The dizzying array of cybersecurity 
requirements has made it difficult to develop effective programs, a 
lack of funding stalls progress and a lack of capable talent compounds 
the negative impacts of ransomware and other attacks. We must do 
better.
    Our success or failure will be determined by our ability to have 
all levels of government work together to evade, counter, or neutralize 
the endless risks that State and local governments state face. Each of 
these efforts require resources--time, money, and energy--that are 
currently in short supply. If we are to make the progress required of 
us in meeting our collective missions, we must work together.

    Mr. Richmond. Thank you, Mr. Duffy, for your testimony.
    I now recognize Mr. Sultan to summarize his statement in 5 
minutes. Thank you.

 STATEMENT OF AHMAD SULTAN, AFFILIATED RESEARCHER, CENTER FOR 
 LONG-TERM CYBERSECURITY, SCHOOL OF INFORMATION, UNIVERSITY OF 
                      CALIFORNIA, BERKELEY

    Mr. Sultan. Chairman Thompson, Ranking Member Rogers, 
Chairman Richmond, Ranking Member Katko, and Members of the 
subcommittee, thank you for inviting me to testify on the topic 
of cybersecurity challenges for State and local governments. My 
name is Ahmad Sultan, and I am testifying in my personal 
capacity as the author of a white paper published by the Center 
for Long-Term Cybersecurity and which was facilitated by the 
city and county of San Francisco.
    The findings of my research detailed in my written 
testimony are alarming, but they are not surprising. 
Underserved respondents in San Francisco defined as low-income 
earners, seniors, or immigrants have poor cybersecurity 
outcomes. Poor outcomes is a researcher's way of saying that 
their devices have been infected with viruses and malware, 
hacked, or phished for money. They don't follow best practices 
for preventative care and they don't have enough knowledge 
about curative care.
    So for today's hearing, I will focus on ways in which we 
reconcile the macro with the micro, reconciling Government's 
attempts to enhance National security with a play of 
individuals and their struggle to use digital devices to 
improve social mobility. Stated simply, while organizations and 
Government invest millions of dollars to defend themselves from 
cyber attacks, a critical part of society is falling through 
the cybersecurity cracks, underserved and vulnerable 
populations.
    This comes at a time when an increasing number of our daily 
activities are governed by internet services. Low levels of 
cyber hygiene, which refers to best practices that improve on-
line security, pose serious challenges to the well-being of 
underserved populations.
    Fear of cyber threats creates a distinct on-line experience 
filled with fear, low confidence, and distrust. It prevents 
underserved users from taking advantage of economic 
opportunities on the internet. These include job search 
services, listing platforms, social networking, and email. 
These services are crucial to remaining competitive in today's 
job market.
    Like a mirror to the physical world, low levels of cyber 
hygiene and knowledge are associated with low-income household 
and low-educational attainment. Most figures on poor 
cybersecurity outcomes are also underreported. In fact, most 
underserved respondents I surveyed and spoke to didn't even 
know about basic concepts: Spam, viruses, or on-line scams. 
Internet evangelists had promised a digital reality that would 
even the playing field across demographics.
    But today, we are replicating the same gender and race-
based patterns of inequality on-line that the existing social 
structures around us enforce off-line. This inequality in 
outcomes is a form of market failure that governments need to 
correct.
    The reason cybersecurity experts adapt concept from public 
health literature like cyber hygiene is because of the unique 
interconnectedness of networks and society. Poor cybersecurity 
practices can cause viruses and malware to spread. This, in 
turn, can impact people, businesses, and infrastructure. It 
deepens inequalities for those already most vulnerable to 
existing economic and social forces but also reduces trust in 
on-line services for all.
    Take, for example, the concept of zombie botnets. Hackers 
can control hundreds of thousands of devices without the device 
owner's knowledge or consent. They can program them to attack 
specific targets, including businesses and infrastructure. Even 
local government staffs suffer from porous practices. The 
increasing frequency of ransomware attacks on local government 
systems is a testament to that fact, and these attacks are 
bound to increase as more city services are digitized.
    The risk of ignoring cyber preparedness is too high. 5G 
networks and AI systems promise smart cities. Important 
municipal services will be powered by strong mobile connections 
and trained machine learning systems. We need to pursue a 
holistic approach where cybersecurity concerns are addressed at 
a societal level, much like public health issues.
    While the underprivileged in society are disproportionately 
affected and most likely to be targeted by attackers and 
scammers, awareness of cybersecurity threats and best practices 
needs to seep into public discourse. Digital literacy is not 
enough; it needs to be paired with cybersecurity awareness.
    This is not just a State and local government problem. 
Cyber vulnerabilities are not bound by geographical boundaries. 
It is incumbent upon Federal, State, and local governments to 
collaborate to solve the problem.
    But State and local governments face many constraints of 
increasing awareness. These include fiscal and budgetary 
challenges, lack of social and technical expertise, low 
organizational capacity, and geographically-bound networks.
    Promoting cyber hygiene through trainings, public service 
initiatives, and public-private partnerships can lead to 
significant gains in the life of underserved populations, while 
protecting businesses and Government systems from cyber 
threats. But to achieve these gains, State and local 
governments will require financial support and guidance from 
the Federal Government. It is my hope that policy makers 
recognize the challenges ahead and rise to the occasion.
    Thank you again, Chairman Richmond and Representative 
Katko. I am happy to answer any of your questions.
    [The prepared statement of Mr. Sultan follows:]
                   Prepared Statement of Ahmad Sultan
                             June 25, 2019
    Chairman Richmond, Ranking Member Katko, and Members of the 
subcommittee. Thank you for inviting me here today to testify on the 
topic of cybersecurity challenges for State and local governments.
    My name is Ahmad Sultan and I am testifying in my personal capacity 
as the author of a white paper published by the Center for Long-Term 
Cybersecurity. This paper was adapted from my Master's thesis at UC 
Berkeley's Goldman School of Public Policy, titled ``Cybersecurity 
Awareness for the Underserved Population of San Francisco''. The 
research was funded by the Center for Long-Term Cybersecurity, and it 
was commissioned by the city and county of San Francisco's Committee on 
Information Technology. The scope of my testimony is based on my 
expertise in cybersecurity before joining ADL. Any views presented here 
are not on behalf of or necessarily reflective of ADL positions or 
beliefs.
    The topic of today's hearing should be of interest to Government 
policy makers, researchers, and to individual targets of cyber attacks. 
Thanks to the rise of mobile devices, the ``digital divide'' which is 
the gap between those who have access to on-line services and those who 
do not--has been shrinking, yet there exists a stark contrast in the 
on-line experience of low-income and high-income individuals.\1\ As the 
adoption of digital services becomes more wide-spread, a new divide has 
emerged between those who can manage and mitigate potential 
cybersecurity threats and those who cannot.
---------------------------------------------------------------------------
    \1\ Digital gap between rural and nonrural America persists. 
(n.d.). Retrieved from https://www.pewresearch.org/fact-tank/2019/05/
31/digital-gap-between-rural-and-nonrural-america-persists/.
---------------------------------------------------------------------------
    While the increasing frequency of cyber attacks, which caused 
catastrophic data breaches \2\ have led to organizations and 
governments investing billions of dollars to defend themselves, a 
critical part of society is falling through the cybersecurity cracks: 
Underserved populations, defined as low-income earners, seniors, or 
immigrants.
---------------------------------------------------------------------------
    \2\ Includes the 2015 Office of Personnel Management breach in 
which an estimated 21.5 million records of personally identifiable 
information were stolen, and the 2014 Sony Pictures Hack, which 
included 47,000 unique Social Security numbers.
---------------------------------------------------------------------------
    This comes at a time when an increasing number of Americans' daily 
activities are facilitated and governed by internet services. Low 
levels of cyber-hygiene, which refers to the best practices and steps 
that internet users take to maintain system health and improve on-line 
security, pose serious challenges to the economic, social, and 
emotional well-being of underserved populations, weaken the security of 
systems in businesses and government, and pose existential threats to 
the democratic values of liberty, equality, and justice for all.
    The findings of my own research into the topic of cybersecurity 
awareness, detailed later in this testimony, are alarming but not 
surprising. Underserved respondents in San Francisco have poor 
cybersecurity outcomes and do not follow best practices. A large number 
of respondents do not know about the existence of common threats like 
viruses and on-line scams.
    Yet, the interconnected nature of on-line networks means that poor 
cybersecurity outcomes for underserved populations can affect countless 
others. It not only deepens inequalities for those already most 
vulnerable to existing economic and social forces, but reduces trust in 
on-line services for all. With 5G networks and Artificial Intelligence 
systems promising smarter cities where key Government services are 
powered by strong mobile connections and trained machine learning 
algorithms, the risk of ignoring poor cybersecurity outcomes are at an 
all-time high.\3\ It is imperative that we work diligently toward 
raising awareness and educating underserved populations about 
cybersecurity.
---------------------------------------------------------------------------
    \3\ Toward AI Security: Global Aspirations for a More Resilient 
Future--CLTC UC Berkeley Center for Long-Term Cybersecurity. (n.d.). 
Retrieved from https://cltc.berkeley.edu/towardaisecurity/.
---------------------------------------------------------------------------
    Solutions exist but they require close coordination between 
Federal, State, and local governments.
                      why should government care?
    A large number of Americans from low-income households have low 
digital literacy and cybersecurity skills, and many do not own 
internet-connected devices or have broadband internet at home. While 
internet adoption has been sporadic over the last few years,\4\ 
improved internet access in cities across the country means millions of 
Americans are expected to become active internet users, many of whom 
will have little knowledge on cybersecurity. Even as connectivity 
increases, the cybersecurity divide threatens to exacerbate existing 
inequalities.
---------------------------------------------------------------------------
    \4\ Demographics of Internet and Home Broadband Usage in the United 
States. (2019, June 12). Retrieved from https://www.pewinternet.org/
fact-sheet/internet-broadband/.
---------------------------------------------------------------------------
    According to recent estimates by Pew,\5\ roughly 3-in-10 American 
adults with household incomes below $30,000 a year (29 percent) do not 
own a smartphone. More than 4-in-10 do not have home broadband services 
(44 percent) or a traditional computer (46 percent). And a majority of 
lower-income Americans are not tablet owners. By comparison, each of 
these technologies is nearly ubiquitous among adults in households 
earning $100,000 or more a year, coupled with higher levels of 
educational attainment and cybersecurity outcomes.
---------------------------------------------------------------------------
    \5\ Digital divide persists even as lower-income Americans make 
gains in tech adoption. (n.d.). Retrieved from https://
www.pewresearch.org/fact-tank/2019/05/07/digital-divide-persists-even-
as-lower-income-americans-make-gains-in-tech-adoption/.
---------------------------------------------------------------------------
    The lack of cybersecurity preparedness for large swathes of 
underserved populations is concerning for a variety of reasons. These 
include:
  <bullet> Cybersecurity inequality.--Underserved populations who tend 
        to be the most vulnerable to real-world social and economic 
        forces are also the most vulnerable to cyber threats like 
        scams, viruses, harassment, and disinformation. Like a mirror 
        to the physical world, low levels of cyber hygiene and 
        cybersecurity knowledge are associated with low-income 
        households and low education attainment. Most figures on poor 
        cyber outcomes are also underreported. This is because many 
        underserved users are unaware of cyber threats and do not know 
        if their devices have been hacked or if they have been victim 
        to a cyber scam. This inequality in cybersecurity outcomes is a 
        form of market failure that governments need to correct through 
        trainings and strategic public-private partnerships.
  <bullet> Digital Inequality.--Internet users exist on a cybersecurity 
        spectrum that includes users who can defend against cyber 
        threats and those who cannot. Low levels of cyber hygiene 
        create a distinct on-line experience filled with fear, low 
        confidence, and distrust that I have seen lead to a complete 
        withdrawal from internet use. Without addressing the underlying 
        causes for the distinct differences in the on-line experience, 
        underserved populations are being denied a wide range of 
        opportunities and conveniences.
  <bullet> Diminished Economic Opportunities.--Fearing cyber threats, 
        large numbers of underserved users are not taking advantage of 
        economic opportunities on the internet. These include job 
        search services like LinkedIn, listing platforms like 
        Craigslist, social networking, email, or on-line banking. All 
        these services are crucial to remaining competitive in today's 
        job market. They are also excluded from obtaining lower prices 
        through on-line shopping, on-line health services, and digital 
        financial inclusion services.
  <bullet> First Amendment Protections.--The internet, and social media 
        platforms in particular, are viewed as the new public squares. 
        Cyber threats can be used to silence speech, create fear, and 
        disrupt key Democratic processes.
    Yet, poor cybersecurity outcomes are not exclusive to underserved 
populations as the lack of awareness of best practices and capacity for 
negligence exists at all levels of society. A holistic approach is 
required where cybersecurity outcomes are addressed at a societal 
level, much like public health issues. This is because poor 
cybersecurity practices can cause viruses, scams, and data breaches to 
spread and impact countless people, devices, infrastructure and entire 
organizations in unpredictable ways. The increasing frequency of 
attacks on local government systems are a product of poor cyber 
hygiene, even in populations that have higher digital literacy. In just 
the last 3 years, the State and local governments of Colorado, 
Baltimore, Atlanta, San Francisco, Jackson County, Riviera Beach, 
Imperial County, Sammamish have had to deal with ransomware attacks.\6\ 
\7\
---------------------------------------------------------------------------
    \6\ Calvert, S., & Kamp, J. (2019, June 07). Hackers Won't Let Up 
in Their Attack on U.S. Cities. Retrieved from https://www.wsj.com/
articles/u-s-cities-strain-to-fight-hackers-11559899800.
    \7\ As More Governments Get Hacked, Concerns Grow Over Mounting 
Costs. Retrieved from https://www.governing.com/topics/finance/gov-
government-costs-hacked.html.
---------------------------------------------------------------------------
    The reason cybersecurity researchers and experts adapt lessons and 
concepts, like cyber hygiene, from public health literature is because 
of the unique interconnectedness of society and networks. Human error 
is the weakest link in both fields and has the potential to 
inadvertently cause unimaginable damage. While the underprivileged in 
society are disproportionately affected and most likely to be targeted 
by attackers and scammers, awareness of cybersecurity threats and best 
practices needs to seep into public discourse at a societal level. 
Digital literacy is not enough, it needs to be paired with 
cybersecurity awareness.
    This is not just a State and local government problem. Cyber 
vulnerabilities exist across the country, and cyber attacks can flow 
seamlessly between State and city lines. It is incumbent upon Federal, 
State, and local governments to provide programs and engage in 
strategic partnerships that aim to improve cybersecurity outcomes.
                  how can the federal government help?
    State and local governments face many constraints to improving 
cybersecurity awareness. These include fiscal and budgetary challenges, 
lack of social and technical expertise, low organizational capacity, 
and geographically-bound networks. While I provide a detailed list of 
recommendations in a later section of this document, some ways that the 
Federal Government can assist State and local governments include:
  <bullet> Direct funds toward local cybersecurity awareness 
        trainings.--Local governments can partner with nonprofits to 
        roll out trainings aimed at improving the cybersecurity 
        knowledge and outcomes for underserved residents. These 
        trainings can be expensive as they require devices and 
        equipment, qualified trainers, monetary or other incentives for 
        participants, and fixed locations scattered throughout the 
        city. Local government budget might not be able to justify 
        prioritizing these expenses.
  <bullet> Design baseline training programs.--Not all State and local 
        governments have the capacity or expertise to design a 
        cybersecurity training program. The Federal Government should 
        work with local governments to design a baseline training 
        program which details the core topics that all training 
        programs should address. While the Federal Government should 
        design the baseline topics and curriculum, the programs should 
        be informed by and tailored to the ground realities of each 
        city and should not limit any government from going further 
        than its selected baseline topics.
  <bullet> Develop and rollout public awareness campaigns.--Public 
        awareness campaigns are more cost-effective and can scale 
        better to reach larger audiences when developed centrally. This 
        streamlines the process of disseminating content to schools, 
        broadcast TV, on-line and physical publications, social media 
        platforms, and radio.
  <bullet> Coordinate public-private partnerships.--The Federal 
        Government is uniquely positioned to work with private 
        technology companies to create advice resources, cross-company 
        collaborations in areas like phishing scams and coordinated 
        disinformation campaigns, and technological solutions like 
        cybersecurity chat bots and apps for smart phones that no 
        longer receive security updates. As I will explain later in 
        this testimony, underserved populations tend to place a high 
        level of trust on advice resources provided by private 
        technology companies. It would be highly inefficient for every 
        State and local government to individually approach technology 
        companies for their own respective solutions.
       study: cybersecurity awareness for underserved populations
    A growing number of cities across the United States have invested 
in digital literacy training programs that aim to educate underserved 
populations in the basics of computer usage and commonly-used 
software.\8\ Such programs often combine the provision of digital 
services, such as free public wi-fi, with digital literacy training to 
help groups who are at risk of digital and social exclusion. These 
initiatives are often led by nonprofits and local governments and aim 
to improve citizens' skills and confidence, as well as increase their 
motivation to engage in on-line activity.
---------------------------------------------------------------------------
    \8\ https://www.digitalinclusion.org/digital-inclusion-
trailblazers/.
---------------------------------------------------------------------------
    San Francisco has a digital literacy initiative under its Office of 
Digital Equity,\9\ where the city government works with local partners 
in the nonprofit space to provide digital literacy training to its 
residents, the vast majority of whom come from low-income households, 
are immigrants, and seniors. Early discussions with city residents were 
revealing: They expressed frustration at their inability to prevent and 
resolve cyber attacks such as phishing scams, viruses, and harassment. 
They were afraid of using important on-line services like banking apps 
and social media platforms.
---------------------------------------------------------------------------
    \9\ https://sfcoit.org/digitalequity.
---------------------------------------------------------------------------
    The theory of change in digital literacy programs normally involve 
encouraging internet use to increase employment, education, creativity, 
and entrepreneurship. But vulnerable populations are easily discouraged 
from using important internet services when faced with complex threat 
vectors.
    We widen digital inequities and reduce the efficacy of digital 
literacy trainings when we do not actively teach cybersecurity. 
Moreover, by neglecting the duty to educate and inform, we leave a 
large portion of the population at the mercy of bad actors who can 
exploit digital vulnerabilities for their own gain.
                           research findings
    I conducted a survey of underserved residents in the city and 
county of San Francisco to understand the scope and nature of the 
underserved communities' cybersecurity outcomes, and to create 
evidence-based solutions. These residents were either low-income 
earners ($25,000 household income or less), senior citizens (65 years 
of age or older), or foreign language speakers (whose primary spoken 
language is not English). The 48-question survey was designed to gauge 
the scope and nature of residents' cybersecurity outcomes, and to 
understand their cybersecurity knowledge and abilities.
    A total of 295 respondents were surveyed. This included 153 
respondents from the underserved population. While this is not 
technically a representative sample, these were the maximum number of 
respondents I could survey who were enrolled in digital literacy 
programs across San Francisco. Their experiences revealed through 
surveys, semi-structured interviews and roundtable discussions reflect 
social and structural inequities that have persisted for too long. In 
addition to the 153 underserved respondents, 142 respondents from the 
comparison group were also surveyed.
POOR CYBERSECURITY KNOWLEDGE AND SKILL LEVEL
    Underserved respondents generally have a poor understanding of 
basic cybersecurity concepts such as on-line scams and viruses. They 
also have low skill level and motivation to follow best practices as 
gauged by cyber hygiene-relevant questions. These include setting a 
complex password for on-line accounts and employing preventative 
methods when reading and interacting with the contents of an email.
    I designed a Knowledge and Skill index to make meaningful 
comparisons between the underserved and comparison group respondents. 
The maximum combined score for the Knowledge and Skill index is 18.0.
  <bullet> Average cybersecurity Knowledge and Skill index score for 
        the underserved respondents = 9.0/18
  <bullet> Average (and Median) cybersecurity Knowledge and Skill index 
        score comparison group respondents = 15.0/18
    Underserved respondents struggle with fundamental cybersecurity 
knowledge questions. When asked about their knowledge of core 
cybersecurity concepts, 20 percent indicated they did not know about 
on-line crime, 21 percent were not familiar with email spam, 26 percent 
did not know about computer or phone ``viruses,'' and 31 percent did 
not know about anti-virus software. Respondents indicated they did not 
understand the risks associated with sharing their private account 
passwords or writing down their passwords on paper.
VICTIMS OF CYBER CRIME
    A large number of respondents from the underserved group reported 
being targets of cyber scams and internet viruses. Respondents provided 
information about the types of personal information that has either 
been stolen from them on-line, or that they have divulged to a complete 
stranger on-line. Together, these results paint a picture of an 
underserved population in San Francisco that is highly vulnerable to 
internet fraud.
  <bullet> Nearly 26 percent of the underserved respondents reported 
        that they have been a target of a cyber scam, compared with 15 
        percent for the comparison group.
  <bullet> Nearly a third (31 percent) of those scammed have been 
        scammed 3 times or more.
  <bullet> Forty percent of underserved respondents reported that their 
        computer and/or phone has been infected by a virus at least 
        once.
AWARENESS OF CYBER CRIME VICTIMHOOD
    Although many underserved respondents reported being a victim of 
cyber crime, an equally large number of respondents are not aware 
whether they have been a victim to a cyber scam, if their devices have 
ever had a virus, or if they ever provided personal information to a 
complete stranger on-line.
  <bullet> Nineteen percent of underserved respondents do not know if 
        they have ever been a victim to a cyber scam.
  <bullet> Forty-one percent do not know if their device has ever had a 
        virus.
  <bullet> Forty-four percent think they have provided personal 
        information to complete strangers on-line but cannot remember 
        the exact details.
INTERNET WITHDRAWAL IS RELATED TO LOW CONFIDENCE
    A significant portion of the underserved sample self-assess as 
having either ``high confidence'' (36 percent) or ``low confidence'' 
(38 percent) in their ability to protect themselves from on-line crime. 
High-confidence respondents can be described as being ``over-
confident'' in their cybersecurity skills while demonstrating poor 
levels of precaution and possessing low levels of cybersecurity 
knowledge, while ``low-confidence'' respondents can be described as 
being ``overly concerned'' about existing risks on-line while 
possessing and demonstrating above-average cybersecurity knowledge and 
precaution.
  <bullet> Self-assessed ``low-confidence'' underserved respondents are 
        more concerned about the existence of cyber crime than 
        underserved and comparison group respondents.
  <bullet> For example, 47 percent of low-confidence underserved 
        respondents do not use on-line banking due to cyber crime, 
        compared to 8 percent in the comparison group. These services 
        also include social media use, downloading software, and email.
  <bullet> This suggests that trust and security play a larger role in 
        determining on-line service usage for the underserved as 
        compared to the comparison group.
CYBERSECURITY ADVICE RESOURCES DETERMINE CYBERSECURITY OUTCOMES
    Underserved respondents tend to rely on informal resources for 
advice about cybersecurity which leads to worse cybersecurity outcomes. 
In fact using on-line resources for advice on cybersecurity is expected 
to increase a respondent's cybersecurity index score by roughly 0.23 
points. The only other predictor with a statistically significant 
coefficient is Educational Attainment--the higher the level of 
schooling achieved, the higher will be the cybersecurity index score.
  <bullet> 39 percent of underserved respondents rely on friends/
        relatives for cyber advice
  <bullet> Only 21 percent of underserved respondents refer to 
        websites, and 7 percent refer to Government websites.
  <bullet> More than a third of respondents (34 percent) do not seek 
        cybersecurity advice from any resource. Comparison group 
        respondents are more likely to seek help (82 percent) and are 
        more than twice as likely to rely on websites for cybersecurity 
        advice (48 percent).
                            recommendations
    Federal, State, and local governments have a variety of options and 
approaches available to improve cybersecurity awareness of underserved 
populations.
GAIN AN UNDERSTANDING OF THE SITUATION IN YOUR COMMUNITY
    The Federal Government should work with cities seeking to improve 
cybersecurity awareness of local underserved populations to gain a 
baseline understanding of their specific situation. They can do this by 
designing and directing funds toward surveys or informational workshops 
to assess major areas of interest and/or lack of knowledge among 
residents. Based on my experience, I recommend partnering with local 
community organizations that serve low-income residents, English 
language learners, and senior citizens. In addition to assessing 
cybersecurity awareness, use this initial outreach as an opportunity to 
assess what modes of training (e.g. 1-hour workshops, half-day 
workshops, etc.) might be most suitable for different constituencies. 
It is also important to identify what translation or technology 
resources might be required to facilitate trainings for the largest 
number of underserved citizens.
DEVELOP TAILORED TRAININGS TO BOOST CYBERSECURITY AWARENESS
    Many cities already offer (or are planning to offer) digital 
literacy trainings. My findings suggest that such programs should 
include explicit targeted cybersecurity awareness and training 
components, which the Federal Government can direct funds toward. A 
customized cybersecurity awareness program that is tailored to the 
specific needs of the community--with topics and content prioritized on 
research-based understanding of the local community's specific needs--
could help improve the knowledge and skill level of participants, which 
would improve cybersecurity outcomes and increase internet service 
engagement. Potential long-term benefits include improved economic and 
social indicators for members of the underserved population.
    Trainings should be customized for different audiences, and should 
target areas where citizens possess lower levels of digital literacy. 
Trainers should also incorporate an awareness of the cultural 
sensitivities and trust habits of the disparate communities. Analysis 
of survey responses from San Francisco, for example, suggests that 
respondents from different communities access different knowledge 
sources. For example, while a larger percentage of Hispanic/Latino 
respondents rely on teachers for advice on matters of cybersecurity, 
African American and Caucasian respondents said they are more likely to 
refer to websites, while Asian respondents are more likely to refer to 
friends and relatives.
DEVELOP A PUBLIC SERVICE CYBER HYGIENE CAMPAIGN
    The Federal Government can promote cyber-hygiene awareness and 
suggest best-practices through public service announcements and a 
cybersecurity campaign on television, in schools, digital platforms, 
public libraries, radio, and other communication channels.
PUBLIC-PRIVATE PARTNERSHIPS
    In addition to providing training to residents directly, the 
Federal Government has the opportunity to partner with private-sector 
technology companies and service providers to address system-level 
cybersecurity concerns, such as the technological protections that are 
built into devices and systems. Effective system-level protections make 
it easier for residents to maintain good cyber hygiene.
DEVELOP A CYBERSECURITY ADVICE WEBSITE
    Members of the public already have access to reliable and free 
resources for cybersecurity, including the United States Computer 
Emergency Readiness Team advice website.\10\ Yet in many cities, 
information about cybersecurity and related resources is disaggregated 
and difficult to find.
---------------------------------------------------------------------------
    \10\ ``Tips.'' Virus Basics/US-CERT. Accessed September 11, 2018. 
https://www.us-cert.gov/ncas/tips.
---------------------------------------------------------------------------
    The Federal Government can work with private-technology firms to 
develop reliable websites that provide cybersecurity advice. It may be 
feasible to develop a phone chatbot that can help residents with basic 
information security questions.\11\ Such chatbots can be designed to 
communicate in several languages, and provide clearly defined answers 
on core cybersecurity knowledge questions, as well as offer step-by-
step instructions based upon best practices. Chatbots should also be 
designed to be highly secure and transparent, with reminders to users 
not to share personally identifiable information, as this software 
could in theory be vulnerable to attacks aimed at capturing data and 
subverting the quality of information provided.\12\
---------------------------------------------------------------------------
    \11\ Security chatbots have become increasingly popular over the 
last few years. For example, Endgame developed Artemis, a language 
agnostic platform that integrates to Amazon's virtual assistant Alexa 
and provides cybersecurity advice to analysts. See ``Four Ways Chatbots 
Are Transforming Cybersecurity.'' Endgame. June 16, 2017. Accessed 
September 11, 2018. http://www.endgame.com/blog/executive-blog/four-
ways-chatbots-are-transforming-cybersecurity.
    \12\ ``Expect a New Battle in Cyber Security: AI versus AI.'' 
Symantec. Accessed September 11, 2018. http://www.symantec.com/blogs/
expert-perspectives/ai-versus-ai.
---------------------------------------------------------------------------
PARTNER WITH COMPANIES TO DEVELOP APPS FOR USE ON OLDER AND UNSUPPORTED 
        PHONES
    Underserved populations tend to use older smartphones that are 
often unsupported by software makers. As a result, older smartphones 
are not guaranteed to get new security updates, and some software 
updates for older devices are not compatible with new phones.\13\ This 
is especially a problem for users with Android phones, where the market 
consists of hundreds of smartphone manufacturers using different and 
modified versions of Android's OS. According to Google's own figures, 
two-thirds of Android devices world-wide run older versions of the OS 
that are no longer receiving security updates.\14\ For Apple's iOS 
devices, that figure is 5 percent.\15\ Apple does provide software 
updates to phones older than 5 years. Even if they follow best 
practices in cyber hygiene, users with older smartphones are still 
highly vulnerable to cyber crime because patches are not automatically 
installed for known vulnerabilities.
---------------------------------------------------------------------------
    \13\ For more on security updates and smartphone compatibility, 
refer to Emspak, Jesse. ``When Does an Old Smartphone Become Unsafe to 
Use?'' Tom's Guide. April 09, 2017. Accessed September 11, 2018. http:/
/www.tomsguide.com/us/oldphones-unsafe,news-24846.html.
    \14\ ``Distribution Dashboard/Android Developers.'' Android 
Developers. Accessed September 11, 2018. https://developer.android.com/
about/dashboards/.
    \15\ Apple Inc. ``App Store.'' Purchase and Activation--Support--
Apple Developer. Accessed September 11, 2018. https://
developer.apple.com/support/app-store/.
---------------------------------------------------------------------------
    The Federal Government should engage smartphone manufacturers like 
Apple, Google, and Samsung to develop workarounds that protect older 
smartphones that cannot accept the latest round of security updates. 
These workarounds could include prompting older smartphones to activate 
device encryption settings, password manager apps, virtual private 
networks (VPN), and two-factor authentication software. Companies that 
develop operating systems should also be asked to develop stricter app 
security review and enforcement guidelines that can review the catalog 
of existing apps as well as newly-submitted apps for security bugs.
    As a potential challenge, Google has little control over the 
updates sent to Android phones in which the OS has been heavily 
modified by the manufacturer, who in many cases retains control over 
software updates. The Federal Government will need to develop a 
strategy with Google to reach smartphone manufacturers who are outside 
of the Google software update landscape.
CREATE A DIGITAL PHISHING/SCAM COALITION
    More than half of all emails are spam \16\--and that figure 
continues to rise. Spam is the primary delivery mechanism for cyber 
attacks like phishing and malware.\17\ And while phishing attacks 
disguised as fake invoice emails are a popular form of phishing, there 
are 9 other forms of phishing emails that are harder to spot, such as 
Mail Delivery Failure emails and order emails. In fact, reports of W-2 
tax filer phishing scams--one of the most dangerous and effective email 
phishing scams, according to the IRS \18\--increased by 870 percent 
between 2016 and 2017.
---------------------------------------------------------------------------
    \16\ ``Latest Intelligence for August 2017.'' Symantec. Accessed 
September 11, 2018. https://www.symantec.com/connect/blogs/latest-
intelligence-august-2017.
    \17\ ``2018 Internet Security Threat Report.'' Symantec. Accessed 
September 11, 2018. http://www.symantec.com/securitycenter/threat-
report.
    \18\ ``Dangerous W-2 Phishing Scam Evolving; Targeting Schools, 
Restaurants, Hospitals, Tribal Groups and Others.'' Internal Revenue 
Service. Accessed September 11, 2018. http://www.irs.gov/newsroom/
dangerous-w-2-phishing-scam-evolving-targeting-schools-restaurants-
hospitals-tribal-groups-and-others.
---------------------------------------------------------------------------
    To address this challenge, the Federal Government should build 
coalitions of organizations that can target popular and successful 
phishing scams. Models for such public-private initiatives include the 
Digital PhishNet initiative, developed jointly by the FBI's National 
Cyber-Forensics & Training Alliance,\19\ and the Advance Fee Fraud 
Coalition, developed by African Development Bank, Microsoft, Yahoo, and 
the Western Union Company.\20\ Companies should target overlapping 
scams and phishing efforts by utilizing contacts in the private sector.
---------------------------------------------------------------------------
    \19\ The Digital Phishnet (DPN) collects and develops intelligence 
regarding high priority and sophisticated phishing and identify theft 
schemes. DPN uses threat intelligence received from approximately 300 
companies. For more visit: http://www.ncfta.net/.
    \20\ The collaborative effort was designed to educate internet 
users so they are better able to protect themselves against fraudulent 
activities on-line and to improve INTERPOL's data collection efforts on 
cyber fraud. For more on this: http://www.affcoalition.org/.
---------------------------------------------------------------------------
    Federal Government officials can also partner with international 
initiatives such as the Unsolicited Communications Enforcement Network 
(UCENET),\21\ which identifies and shares threats to the broad on-line 
community and facilitates enforcement compliance checks. Private-sector 
representatives are encouraged to designate a spam enforcement contact, 
coordinate with law enforcement agencies, and report on new technology 
trends that affect anti-spam strategies.
---------------------------------------------------------------------------
    \21\ Formerly known as the London Action Plan (LAP): https://
www.ucenet.org/history/.
---------------------------------------------------------------------------
                               conclusion
    It has been an honor to appear before this distinguished panel of 
policy makers and practitioners. Thank you, Chairman Richmond and 
Ranking Member Katko, for your dedication to addressing cybersecurity 
vulnerabilities, and for thinking about ways in which the Federal 
Government can assist State and local efforts.
    Promoting cyber hygiene through trainings, public service 
initiatives, and public-private partnerships can lead to significant 
gains in the lives of underserved populations and protect businesses as 
well as Government systems from cyber threats. But to achieve these 
gains, State and local governments will require support and guidance 
from the Federal Government. It is my hope that policy makers recognize 
the challenges ahead and rise to the occasion. Thank you and I will be 
happy to answer any of your questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Richmond. Thank you, Mr. Sultan.
    We now have Mr. Cilluffo.

STATEMENT OF FRANK J. CILLUFFO, DIRECTOR, MC RARY INSTITUTE FOR 
      CYBER AND CRITICAL INFRASTRUCTURE, AUBURN UNIVERSITY

    Mr. Cilluffo. Thank you, Chairman Richmond, Ranking Member 
Katko. A real privilege to have Chairman Thompson here. Of 
course, the great Ranking Member and Congressman from the State 
of Alabama, Mr. Rogers. It is a privilege to join you today.
    As we all know, cybersecurity challenges are daunting 
enough to deal with at the Federal level. At the State and 
local, Tribal and territorial levels, where resources and, in 
many cases, expertise are in relatively shorter supply, these 
challenges are exponentially more difficult to tackle. 
Recognizing this mismatch and taking steps to address it is an 
absolute imperative. Your leadership in confronting this issue 
head-on today and in legislation that I am happy to hear coming 
from both the Chairman and the Ranking Member that is 
reportedly under discussion is commendable.
    For too long, State and local have been an afterthought in 
our National cybersecurity planning efforts. This must change. 
States and localities perform many essential functions, as you 
mentioned, Mr. Chairman, that affect real people every day 24/
7. The potential consequences are serious. Bear in mind that 
cyber threat actors can cause loss of life, property damage, 
and, of course, financial loss by disrupting critical 
infrastructure or using ransomware and other forms of malware.
    The bad guys have taken notice, including that State and 
local are softer targets and are increasingly in their 
crosshairs. The ransomware incidents that victimized in Atlanta 
and Baltimore are case in point but are by no means the end of 
the story.
    The scale and scope of the problem is striking. Data on 
reported ransomware attacks reveal that 48 States and the 
District of Columbia have been hit. Targets include police and 
sheriff departments, schools and libraries, health agencies, 
transit systems, courts, and the list goes on and on and on. No 
jurisdiction is too small or too large.
    While ransomware might be front and center right now, and 
understandably so, we need to recognize that the cyber threat 
landscape includes many more disruptive and destructive 
modalities of attack. Quite honestly, ransomware is at the low 
end of the most concerning cyber potential attacks we can 
witness. Cyber attackers will continue to target weak links. 
That is the bottom line.
    Cyber needs at the State and local level are truly many. 
More money, more experts, more tools, more threat intelligence 
information sharing and awareness, more collaboration between 
governments and industry, among governments, and regionally, 
just to name a few.
    Against this background and backdrop, what should the 
Federal Government do? I think Mr. Duffy hacked my email 
because my recommendations are very similar to his.
    First, as things now stand, less than 4 percent of grant 
monies from the Homeland Security Grant Program are directed to 
cybersecurity. This is clearly not reflective of current threat 
environment. Congress should enact a dedicated Federal grant to 
shore up State and local cybersecurity capabilities through 
CISA at the Department of Homeland Security. It should be risk-
based, have built-in metrics, and include a level of matching 
funds, since simply throwing money at the problem is not the 
answer. Topping the list of needs include identifying highest-
value assets, exercises, training, and, of course, technical 
support.
    Second, CISA should expand its field presence to provide 
technical assistance and incident response support. In effect, 
a geek squad for those really bad days so the mayor could call 
someone.
    No. 3, pull a page and leverage lessons learned from the 
emergency management community by building regional approaches 
to capacity building and pooling of resources and expertise 
among States to offer mutual assistance. The EMAC model in 
emergency preparedness environment has serves us well and I 
think ought to be replicated and tweaked for cyber.
    No. 4, obviously circumscribed election assistance since 
trust and faith in the electoral process is the very bedrock of 
our democracy. Some good momentum here, but we need to continue 
doubling down and make sure we are ready for the next round of 
elections.
    So while I touched largely on technology training, incident 
response, and work force, this is by no means exhaustive.
    I want to close on a little bit of a good news story, and 
that is this is not all the Federal Government's problem, of 
course. The Federal Government can, must, and should do more to 
support our men and women at State and local, but ultimately 
there is a lot of good activity occurring at the State and 
local level, and I think it should be recognized.
    One in particular I am proud of, and I might be biased, 
because I serve as a trustee, but in the State of Alabama, they 
have created a new magnet school focused 7 through 12 grade for 
cyber and engineering. This is what we need to do. When we talk 
work force, it is not only at the collegiate level, at the 
places of higher learning like my great university, but it is 
really at the K-12 level. I think we need to be spending more 
time, more money, more resources to be able to get them and get 
them young, because they are the women and men who are going to 
be driving the solution sets going forward.
    So I have never had an unspoken thought. I can go on 
forever, but I will close here. The one thing, Mr. Chairman, I 
should say is, while I am testifying on behalf of the McCrary 
Institute, a lot of these thoughts came from a committee I 
chaired for the Homeland Security Advisory Council that I was 
co-chair. I am just not speaking on behalf of DHS.
    So thank you, Mr. Chairman.
    [The prepared statement of Mr. Cilluffo follows:]
                Prepared Statement of Frank J. Cilluffo
                             June 25, 2019
    Chairman Richmond, Ranking Member Katko, and distinguished Members 
of the subcommittee, thank you for this opportunity to testify before 
you today. As we all know, cybersecurity challenges are daunting enough 
to deal with at the Federal level. At the State, local, Tribal, and 
territorial (SLTT) levels, where resources and in many cases expertise 
are in relatively shorter supply, these challenges are exponentially 
more difficult to tackle. Recognizing this mismatch and taking steps to 
address it is an absolute imperative in a country as large, varied, and 
decentralized as the United States.
    Your leadership in confronting this issue head-on today and in 
legislation that is reportedly under discussion \1\ is deeply 
commendable as these are important steps in breaching a real and 
pressing gap in our National and economic security posture. We must 
work to safeguard the continuity of commerce and the delivery of 
mission-critical services for the American people. Unless and until we 
foster and have in place a robust baseline capability across the board, 
from a State and local standpoint, we will remain more vulnerable than 
we ought to be to nation-state and non-state cyber actors with 
malicious intent.
---------------------------------------------------------------------------
    \1\ Maggie Miller, ``House Homeland Security Republicans to 
introduce slew of cybersecurity bills,'' The Hill (June 18, 2019), 
https://thehill.com/policy/cybersecurity/448971-house-homeland-
security-republicans-to-introduce-slew-of-
cybersecurity?wpisrc=nl_cybersecurity202&- wpmm=1.
---------------------------------------------------------------------------
    In testifying before you today, I will be sharing thoughts about 
how to move forward smartly. These ideas pertain only to those Federal 
entities that fall within the jurisdiction of the committee. Moreover, 
a number of these recommendations are based on the May 2019 Interim 
Report of the Homeland Security Advisory Council's State, local, 
Tribal, and territorial cybersecurity subcommittee.\2\ I served as co-
chair of that effort, together with Paul Goldenberg (co-chair) and 
Robert Rose (vice-chair). However, I testify before you today in my 
capacity as director of Auburn University's McCrary Institute for Cyber 
and Critical Infrastructure Security.
---------------------------------------------------------------------------
    \2\ https://www.dhs.gov/sites/default/files/publications/
19_0521_final-interim-report-hsac-state-local-tribal-territorial-
subcommittee.pdf.
---------------------------------------------------------------------------
                           setting the scene
    State and local governments face the full panoply of threats that 
the Federal Government does, from hostile nation-state actors to cyber 
criminals and everything in between. To the extent that the Federal 
Government is effectively outgunned and outmatched in this fight, the 
State and local level are all the more so. The potential consequences 
are serious: Bear in mind that cyber threat actors can cause loss of 
life, property damage, and financial loss by disrupting critical 
infrastructure operations or other means.
    Nor is the cyber threat spectrum static. It continues to expand and 
evolve, sharpening focus on State and local targets. The ransomware 
incidents in Atlanta \3\ and Baltimore \4\ that disrupted city 
operations are cases in point and by no means will they be the end of 
the story. To the contrary, the scale and scope of the problem is 
striking, affecting everywhere from relatively robust States to major 
metropolitan areas to smaller cities and counties. Data on reported 
ransomware attacks reveal that 48 States and the District of Columbia 
have been hit. Targets include police and sheriff departments, schools 
and libraries, health agencies, transit systems, and courts--the list 
goes on and seemingly, no jurisdiction is too small or too large to go 
unaffected. The first known case of ransomware targeted the Swansea 
Police Department in Massachusetts in November 2013 and since then 
entities from Anchorage to Augusta have joined the ranks.\5\
---------------------------------------------------------------------------
    \3\ Benjamin Freed, ``One year after Atlanta's ransomware attack, 
the city says it's transforming its technology,'' StateScoop (March 22, 
2019), https://statescoop.com/one-year-after-atlantas-ransomware-
attack-the-city-says-its-transforming-its-technology/.
    \4\ Emily Stewart, ``Hackers have been holding the city of 
Baltimore's computers hostage for 2 weeks,'' Vox (May 21, 2019), 
https://www.vox.com/recode/2019/5/21/18634505/baltimore-ransom-robbin-
hood-mayor-jack-young-hackers.
    \5\ Allan Liska, ``Early Findings: Review of State and Local 
Government Ransomware Attacks'' (Recorded Future: 2019), https://
go.recordedfuture.com/hubfs/reports/cta-2019-0510.pdf.
---------------------------------------------------------------------------
    Cyber attackers and adversaries will continue to target weaker 
links in the U.S. chain so long as it remains profitable or otherwise 
beneficial to these threat actors to do so. To make matters worse, the 
internet of things with all that it entails from smart cars to smart 
cities and beyond will expand the surface of attack by orders of 
magnitude. Security must therefore be more than a footnote or 
afterthought, especially where critical infrastructure is concerned. In 
addition, both cyber and physical infrastructure are vulnerable to 
attack, and the one can cause disruption or destruction in the other. 
This convergence of cyber domain and the physical world is another 
significant feature of the threat landscape.
    Looking ahead, State and local infrastructure and the cyber 
vulnerabilities that inhere in it will take on added salience for 
defenders and attackers alike. Election year 2020 reinforces the point: 
States and local communities will again be at the tip of this spear, 
taking a multiplicity of approaches to administering voting. There is 
no one model or mechanism of cybersecurity governance in use at the 
State level, whether for elections or taken more broadly. Approaches 
are varied and so too are capabilities. The same is true at the local 
level, only more so.
    There are examples and pockets of State and local government 
cybersecurity excellence to be sure; but there are also significant 
gaps and seams where the Federal Government can help and can do so 
without subverting the principle that the level of government that is 
closest to the people knows best how to serve them. Cyber needs at the 
State and Local level are many: More money, more experts, more tools, 
more information/awareness and more collaboration (between Government 
and industry, and among governments and regions)--to name just a few.
    Against this background what can and should the Federal Government 
do? How best can the Federal Government leverage its resources in the 
broadest sense of the word, to help State and local governments amplify 
their strengths and mitigate their weaknesses? Enhancing the pool of 
financial resources available to support a range of cybersecurity 
purposes is just one--albeit very important--way. Other ideas are set 
out below.
                         moving forward smartly
Directed Federal Funding
    Funding is crucial of course and building capability is impossible 
without it. Purchasing, maintaining and upgrading equipment, hardware, 
and software comes at a financial cost. So too does recruiting and 
retaining skilled workers. Educating the next generation and expanding 
the cyber workforce by training or retraining the existing talent pool 
also requires an investment of dollars, time, and effort. For all of 
these purposes and more, a Federal grant program to shore up State and 
local cybersecurity capabilities is needed and long overdue. As things 
now stand, less than 4 percent of grant monies from the Homeland 
Security Grant Program are directed to cybersecurity. This is not a 
tenable situation. Nor is the answer to redirect existing monies for 
cyber purposes. Robbing Peter to pay Paul simply will not work.
    A dedicated Federal grant program should have built-in safeguards 
to ensure that there is return on Federal investment in the form of 
measurable State/local and by extension National capabilities. Simply 
throwing Federal money at the problem is not the answer. Instead, there 
must be a thoughtful strategy and accompanying metrics to support the 
request for funds and any subsequent grant. The program would therefore 
be risk-based and tailored to particular context. Among the purposes 
that such a program could and should support would be both State-level 
and regional exercises. Notably momentum for directed Federal funding 
is building as evidenced for example by the recommendations in the May 
2019 Interim Report of the Homeland Security Advisory Council's State, 
local, Tribal, and territorial cybersecurity subcommittee.\6\
---------------------------------------------------------------------------
    \6\  https://www.dhs.gov/sites/default/files/publications/
19_0521_final-interim-report-hsac-state-local-tribal-territorial-
subcommittee.pdf.
---------------------------------------------------------------------------
Amplify Training Opportunities
    The Federal Government could further assist by providing 
opportunities for State and local officials to gain and hone 
cybersecurity skills, as well as how to identify and counter foreign 
influence. While education and training programs certainly do exist 
they are neither as numerous nor as evenly available across the country 
as would be ideal. A National focal point where those whose community 
is underserved by training opportunities could advance their skills and 
career and by extension the National interest, would serve us all 
well.\7\ All the equipment, tools, and resources in the world will be 
of little assistance if the technical expertise needed to employ them 
to full advantage is not cultivated in the requisite official quarters.
---------------------------------------------------------------------------
    \7\ Note also that the HSAC's SLTT Cybersecurity Subcommittee 
Interim Report recommends the creation of a National Cybersecurity 
Academy to train SLTT Government employees--an idea whose time has 
come.
---------------------------------------------------------------------------
    Among the beneficiaries of such training could be State and Major 
Urban Area Fusion Centers, whose cyber-specific capabilities have long 
lagged behind their other homeland security and law enforcement 
capabilities.\8\
---------------------------------------------------------------------------
    \8\ Frank J. Cilluffo, Joseph R. Clark, Michael P. Downing, and 
Keith D. Squires, Counterterrorism Intelligence: Fusion Center 
Perspectives (June 2012).
---------------------------------------------------------------------------
Leverage Lessons Learned
    Over the past 20 years, the country has learned many lessons about 
preparing for, responding to, and bouncing back from major incidents 
such as terrorist attacks and natural disasters. These experiences have 
ultimately made us smarter, stronger, and more resilient as a Nation, 
though we still have a ways to go. Among these lessons is the value of 
taking a regional approach to capacity building and mutual assistance, 
which builds upon existing relationships and arrangements, and follows 
logically and naturally from proximity and geography, rather than 
duplicating efforts and according formal borders/boundaries undue 
influence. The EMAC--Emergency Management Assistance Compact--concept 
is as relevant here as in the traditional emergency management context. 
Pioneered in the South, use of the construct has expanded over time \9\ 
and would transpose well to the cyber domain. The basic idea is to pool 
resources and expertise in order to offer mutual assistance.
---------------------------------------------------------------------------
    \9\ EMAC Overview (August 2006), https://www.fema.gov/media-
library-data/20130726-1726-25045-0915/060802emac.pdf.
---------------------------------------------------------------------------
    When it comes to cybersecurity, such an approach would for example 
have States undertake planning, incident response, and resilience 
enhancement measures from a regional perspective. Here the Federal 
Government could and should act in support of these efforts including 
by acting to expand awareness of best practices and guidance on how 
best to implement them.\10\
---------------------------------------------------------------------------
    \10\ Note that the HSAC's SLTT Cybersecurity Subcommittee Interim 
Report also highlights the value of a regional approach.
---------------------------------------------------------------------------
    A further lesson learned over time relates to recognizing the 
importance of being out in the field rather than at headquarters. There 
is no substitute to having boots on the ground. To this end, the 
Department of Homeland Security's Cybersecurity and Infrastructure 
Security Agency (CISA) should extend its operations and work toward 
having State cybersecurity coordinators for all 50 States to provide 
technical assistance and incident response support. This would broaden 
and complement existing DHS efforts and field personnel (State 
Cybersecurity Advisors) focused on community engagement and awareness 
as well as the provision of enhanced strategic advisory services. The 
arrangements proposed here would also help convey and highlight the 
Federal consequence management capabilities and tools that can support 
and supplement State capabilities--in effect a bad day ``geek squad.''
Circumscribed Election Assistance
    One of the most significant cybersecurity challenges to State 
governments relates to the 2020 election and in particular preparing to 
administer the vote and ultimately doing so. Protecting the integrity 
of the process from beginning to end is of paramount importance as this 
exercise provides the bedrock for our democracy; trust and faith in the 
process is the glue that binds us together. The Federal Government can 
and should share more widely and actively its unique informational and 
other assets with State-level counterparts for the targeted purposes of 
identifying and mitigating threats in this context.\11\
---------------------------------------------------------------------------
    \11\ But note that the Multi-State Information Sharing and Analysis 
Center (MS-ISAC) does yeoman's work in terms of amplifying situational 
awareness (for example by providing threat alerts to all 50 States and 
manifold localities); and helping to coordinate incident response. For 
details, see https://www.cisecurity.org/ms-isac/.
---------------------------------------------------------------------------
    To be clear, this would involve concerted Federal efforts to create 
and maintain a rich picture of the threat from the National perspective 
and a companion effort to support State officials in responding 
effectively and timely to that dashboard as it specifically pertains to 
them/their State.\12\ Such a division of labor is properly respectful 
of the division of powers and capitalizes upon the strengths that 
reside at each level of government. By working together in this way, 
the Nation stands the best chance of defeating adversary attempts to 
exploit not just our technology but also our hearts and minds, by means 
of weaponizing information and influence. Fortunately, we are seeing 
some positive indicators already, with (DHS) CISA deepening its 
outreach to and work with the Nation's Governors.
---------------------------------------------------------------------------
    \12\ A variation of this idea is proposed in the HSAC's SLTT 
Cybersecurity Subcommittee Interim Report.
---------------------------------------------------------------------------
    This series of recommendations focuses on technology, training, 
incident response, and the workforce. The list is not exhaustive and 
speaks instead to the actions that could have the highest impact on the 
cybersecurity challenges of greatest priority in the context of State 
and local government.
                      ending on a good news story
    In addition to assessing how the Federal Government can help State 
and local governments to address cybersecurity challenges, it is 
important to acknowledge that there is good work under way outside the 
Federal sphere and that State and local entities are taking substantial 
steps to help themselves. Keep in mind that States have a correlative 
and on-going responsibility to lead and lean forward, and should not 
expect the Federal Government to supplant State efforts or to be there 
all the time. In this regard consider for example the Alabama School of 
Cyber Technology and Engineering (full disclosure: I serve on the 
School's Board of Trustees). This magnet school for grades 7 through 12 
will stand up in August 2020 in the Huntsville Research Park. Our 
vision for the ASCTE is to ``educate, develop, and inspire the next 
generation of leading National professionals and technologists in 
engineering and cyber technology.''\13\
---------------------------------------------------------------------------
    \13\ https://www.alabamasce.org/school.
---------------------------------------------------------------------------
    This effort complements the many cybersecurity programs and 
initiatives including partnerships with industry and government that 
are under way at Auburn University and other educational institutions 
within the State of Alabama and in the Southeast more broadly. While 
the coasts of this country tend to garner the bulk of attention when it 
comes to coverage of cyber and science & technology matters more 
generally, it is important to recognize that other jurisdictions are 
quietly plowing ahead on significant efforts in these same issue areas 
that are so critical to our National security. These under-reported 
successes serve us all well since Federal measures alone will not get 
us to goal or keep us there even if they could.
    Thank you once more for this opportunity to participate in this 
important conversation and assessment.\14\ I look forward trying to 
answer any questions that you may have.
---------------------------------------------------------------------------
    \14\ I would also like to thank my colleague Sharon Cardash, deputy 
director of the Center for Cyber and Homeland Security, for her 
assistance in preparing this testimony.

    Mr. Richmond. Thank you, Mr. Cilluffo.
    I thank all the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    The first question, I will just direct it to you, Mayor 
Bottoms. Historically, cities and States have spent a much 
smaller percentage of their overall budgets on cybersecurity 
than Federal agencies and similarly situated private entities. 
A recent study from National Association of State Chief 
Information Officers shows that most States spend only 1 to 2 
percent of their overall IT budget on cybersecurity.
    So the question for you would be, in Atlanta, what are the 
limitations does your city face when trying to develop and 
implement robust cybersecurity controls, strategies, and 
resource plans?
    Ms. Bottoms. Thank you for the question. When we 
experienced our cyber attack, it was very clear to us that we 
simply were not prepared. It was not where we had made the 
necessary investments.
    People don't see cybersecurity. They see sidewalks, they 
see potholes. We were allocating our resources accordingly and 
we were also putting patches on gaping holes.
    That being said, it is the reason that we did not pay our 
ransomware, because we knew that we needed to build a stronger, 
safer system. We have allocated resources accordingly. Now 
there is also an expectation from the public that it is 
necessary for us to budget for our cybersecurity network in the 
same way that we budget for our other priorities within the 
city.
    We are also messaging that to the public, that this is 
equally a priority, and that messaging is a lot easier now, 
because the public has felt that impact. In many ways, people 
are becoming very sensitized to cyber attacks.
    We are continuing to work with our private partners as 
well. We are very fortunate in Atlanta that we have a very 
booming tech industry, also with Georgia Tech and the Atlanta 
University Center. So there is an interest in helping us in 
ways that other cities may not have that benefit. But also, it 
is important that Federal funding trickle down into our cities 
to allow cities like Atlanta, and especially our smaller 
cities, opportunities to purchase cyber insurance and in the 
same way that we did to be able to actually bill the system 
that is needed. Because in so many cities, that system simply 
does not exist at this point.
    Mr. Richmond. As a chief executive of a city, how hard is 
it to retain the cybersecurity professionals and the talent 
that you need to do this when we have a severe shortage of 
cybersecurity professionals and the private sector pays a lot 
more than the public sector? So how are you addressing that 
challenge, and how can we help with that?
    Ms. Bottoms. It is extremely difficult for us, because we 
are competing with the private sector. We really are looking 
for people and are fortunate that we have people who actually 
are interested in public service. But funding is always 
necessary and would be extremely helpful for us to offset and 
to be able to compete accordingly.
    We have increased our budget in our DIT department, but it 
is still not enough. It is always a challenge for us to attract 
and retain talent, because we simply cannot pay what the 
private sector pays.
    Mr. Richmond. You mentioned it a second ago and you said 
that now you are fortunate. When I look at our cities, and I 
will just take my own, for example, that constituents are 
concerned with sanitation being on time, street lights, police 
officers, and potholes. The city of Atlanta is now very keenly 
aware of the threat of cybersecurity.
    What advice would you have for other mayors who have not 
been attacked yet but still face those competing pressures of 
real brick-and-mortar infrastructure compared to cyber 
infrastructure?
    Ms. Bottoms. You have to plan and prioritize accordingly. 
We were very fortunate in that it was not our 9-1-1 system, but 
it very well could have been. Ironically, our public may say 
that they received a bit of a reprieve because they couldn't 
pay traffic tickets and they couldn't pay their water bills.
    But that being said, our cities must prioritize and 
anticipate in the same way that we anticipate for any other 
major disaster to hit our cities, because, really, that is what 
it is. It is simply a disaster when it hits your city.
    Mr. Richmond. Well, I see that my time has expired, so I 
want to thank the witnesses.
    I will now recognize the Ranking Member, Mr. Katko, for 5 
minutes of questioning.
    Mr. Katko. Thank you, Mr. Chairman.
    I want to make a couple of observations before I ask some 
questions. First of all, Mayor Bottoms, I want to commend you 
for having the political courage to stand up to this ransomware 
attack and not pay the ransom. That takes guts, and I commend 
you for that.
    Just out of curiosity, you said there was two Iranians that 
were charged with this?
    Ms. Bottoms. There were two Iranians.
    Mr. Katko. Have they been brought to justice yet?
    Ms. Bottoms. They have been charged. I am not sure what the 
status is. But we were very fortunate in that they were 
actually identified, which is very unusual, as I understand it.
    Mr. Katko. Very unusual. That is why I am curious. Were 
they in the United States or don't you know?
    Ms. Bottoms. They were not.
    Mr. Katko. OK. All right. Well, that is just a great 
example of the threats that we face.
    Mr. Duffy and Mr. Cilluffo, I think you both kind-of 
touched on this, the importance of the Federal, State, and 
local partnerships. You know, as a Federal organized crime 
prosecutor, I would be dead without Federal, State, and local 
task forces. It is really the same concept. The synergistic 
qualities of having all these different players come to the 
table, work together under the same roof, there is no 
substitute for that. They all bring different strengths to the 
table. I commend you for understanding how important that is as 
well.
    Mr. Cilluffo, I am very disturbed about the less than 4 
percent of Homeland Security funds grant money going toward 
cybersecurity. You know, I was thinking back to pre-9/11. We 
had plenty of alarms out there, and we didn't pay enough 
attention or prioritize those alarms, and we paid a dear price 
for that.
    It kind-of seems like we are doing the same thing again 
here. We understand the concerns. The alarm bells are going off 
awfully loud. Before we have a catastrophic cyber event, we 
better get our act together and prioritize with more funding 
and more attention.
    On a somewhat smaller but important scale, that is what 
that bill I was talking about to you all was about. It would 
develop basically a front page for CISA so any State or local 
government could go to that page and understand exactly where 
the resources are instead of trying to fish around for them. So 
that is step 1 of the bill.
    Step 2 are to grant programs for State and local grants to 
identify high-value assets so you can prioritize what needs to 
be protected most, and then we can address those accordingly.
    The third thing would be is to grant State and local 
governments--to provide grants to State and local governments 
to conduct exercises, tabletop and what have you, to train, 
prepare, and evaluate responsibilities.
    So those are the things that I think are important. I would 
like to hear feedback from all of you, if we have time, as to 
what you think about the bill and whether it would help. Mr. 
Duffy, you could start.
    Mr. Duffy. Yes, I certainly think the bill would be very 
helpful. You know, certainly the exercises are critical. I can 
say that DHS and FEMA have been pretty active in the exercise 
area. They just held the National-level election exercise last 
week. I know some of the House member staffs were participating 
in that.
    There is a National cyber storm exercise coming up. There 
is a guard exercise coming up. Certainly, more exercises are 
needed. More participants need to be active in the exercise 
program.
    I think the State and local partnership is critical. A lot 
of States--I mean, 5 years ago, the States weren't doing much 
with the local government relative to cybersecurity. That has 
changed quite a bit. You know, they do recognize that the local 
system is connected to State. So local problems can become 
State problems in a hurry. State systems connect to Federal 
Government. So, again, State problems could be Federal problems 
in a hurry.
    A lot of States, such as New York, Wisconsin, Iowa, have 
been using the Homeland Security money to help the local 
governments. I know New York State just released a $50,000 
grant to counties. So they are working on that.
    Mr. Katko. Right.
    Mr. Duffy. Certainly, Wisconsin is doing it with the State-
wide incident response team with using members of local 
government as volunteers. So there is money out there, but they 
need more of that.
    Mr. Katko. All right. Message received.
    Mr. Cilluffo.
    Mr. Cilluffo. Well, Mr. Katko, I think the legislation, as 
you laid it out, nails it. I mean, every one of those items is 
needed and needed desperately. There is an old adage: Policy 
without resources is rhetoric. But it is more than just the 
resources. The resources are important. That puts skin in the 
game. But at the end of the day, you do need to get to the 
point that you can build the relationships.
    The Joint Terrorism Task Forces, the JTTFs, those entities 
are worth more than any weight in gold in terms of building 
trust between the women and men who have to work together in 
very tough situations. So I do think that exercises--we 
shouldn't be picking up the playbooks on game day. We have got 
to be exercising this beforehand. We shouldn't be needing the 
offensive and defensive coordinators on game day. Everyone 
needs to get to know one another.
    While we are doing some of this at the Federal level, and 
Congress Langevin knows very well, there is a commission 
looking at some of how of the inner agency gets together that 
we had the privilege to serve on together at the Federal level. 
But that is not anywhere near where it needs to be at the State 
and local level. So whatever advocacy, count on me being there.
    Mr. Katko. I am out of time, but I do want to observe that 
this is perhaps one of the best qualified panels I have seen in 
a hearing in quite a while, so I appreciate the witnesses.
    I yield back.
    Mr. Richmond. The gentleman's time has expired.
    I know recognize the Chairman of the full committee, Mr. 
Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mayor Bottoms, one of the challenges we have as Members of 
Congress, people say, well, if you would just give us the 
money, we can fix it. But our challenge is, do we set 
parameters of guidelines with the money so that at the end of 
the day we can measure how successful the goal has become?
    So if Congress did somehow get in the business of helping 
State and locals fortify its cyber systems, do you see any 
pushback with the resources coming with some criteria by which 
the money would be sent?
    Ms. Bottoms. Absolutely not, Mr. Thompson. What I see is it 
would be welcome, because we have a challenge with, No. 1, 
hiring professionals as we compete with the private sector. 
Also, in having--I believe it should be at least a baseline 
standard with what our systems and security systems should be 
in place.
    For many years, again, we were allocating small amounts of 
money per our budget toward our system, and we were not 
addressing the real needs and upgrading in the way that we 
should. With this cyber attack, it made us allocate a much 
larger portion of our budget than we ordinarily would have to 
do something as simple as create the cloud. I think that with 
partnership with our Federal partners and with the allocation 
of resources, I think that it will help put cities on a much 
stronger footing and also create a baseline of standards that 
many cities may not even be aware of until they are faced with 
something as disastrous as a cyber attack.
    Mr. Thompson. Mr. Duffy, you talked a little bit about this 
in your comments. Do you want to share your opinion on that?
    Mr. Duffy. Yes. I think anything when they are distributing 
grant money, there certainly should be conditions relative to 
how smart was the money spent. Just throwing money at the 
problem is not the solution. Money has feet. One thing they 
need to do is identify what their gaps are, what are their 
weaknesses, and identify how are they using that money to plug 
those holes that are in their networks. What are the metrics 
you want so they can prove that the money was well spent. As I 
said, throwing the money at it won't solve the problem. But 
metrics and accountability should go hand-in-hand with any 
grants that are out there.
    Mr. Thompson. Mr. Cilluffo, are you comfortable with the 
responses that have been received?
    Mr. Cilluffo. Congressman Thompson, absolutely. I do just 
want to underscore it is important. We have learned lessons the 
hard way after 9/11 in terms of how all the funds were 
disbursed and used. But I think it is now a much more refined 
process, and I think we need to do the very same with respect 
to cyber.
    I mean, we absolutely need the resources, but we need to 
also make sure we are measuring what matters. The one thing 
that I would like to see is a match coming from State and 
local, that they are committed, that they are willing to put a 
percentage of whatever outcome of their own resources to 
maximize the impact. But it is needed.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    I will yield my minute to the Chair.
    Mr. Richmond. I just wanted to make a point. I am not 
needling my colleagues on either side of the aisle, but this 
goes back to the Federal Government and our role as the Federal 
Government of helping municipalities and others who are--some 
things are beyond their capacity, whether it is talent-wise or 
money-wise.
    So do you think that we can provide more cybersecurity in 
this country with less money? Does anybody think we can provide 
more cybersecurity with less resources?
    Mr. Duffy. I would say no.
    Mr. Richmond. OK. Can we secure more airports with less TSA 
agents? No?
    Mr. Sultan. No.
    Mr. Cilluffo. I think you can do more. That doesn't mean it 
is going to be 100 percent, because cybersecurity--it is not an 
end state.
    Mr. Richmond. Well, no. My question is going toward this 
general thing. When we go through our budget cycles, the mantra 
is usually we are going to do more with less. I am just asking, 
is this an area that we believe we can do more with less money, 
just like TSA?
    I just wanted to highlight that we have different 
challenges in this country in this time and day. It costs money 
to protect the American people. It is not that we just want to 
spend, spend, spend. What we really want to do is protect, 
protect, protect our people, their assets, and their resources.
    With that, I will recognize the gentleman from Texas, Mr. 
Taylor, for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman. I appreciate this 
hearing. I think this is important.
    Just to kind-of go through one specific item that has come 
to my attention. Sometimes cities lose control of their data, 
right? So cities provide municipal services, water service, 
electric service. They have everybody's address. They have got 
their phone numbers. They have got their credit card 
information.
    Is there a standard or a Federal requirement of some kind 
to tell the consumer, to tell their citizens, hey, we have lost 
your data, it got breached? Is there some kind of standard out 
there that--I am not aware of one, but maybe you can tell me 
that there is.
    Mr. Duffy, do you know of a standard?
    Mr. Duffy. Yes. Well, most States have a breach 
notification law. So if there is a breach and the breach 
reaches a certain criteria relative to the number of 
individuals that are impacted, there is a requirement that they 
do notify the individuals.
    Where it gets rather difficult is, say, someone's credit 
card is compromised by a local town, and they may not have the 
person's individual address to identify to contact them. So 
then they have to work with their credit card company, because 
they are the ones that have the relationship with the 
individuals.
    But I think almost every State, not quite every State, does 
have breach notification laws.
    Mr. Taylor. Did you want to follow up with that?
    Mr. Sultan. Congressman Taylor, I do think--and people have 
attempted to move toward a National data breach notification 
law, which I think we really do need, because there is lots of 
confusion. You have seen one State, you have seen one State. 
That is a good thing. That is what a Federalist form of 
government is.
    But when it comes to data breach notification, we should 
have consistency across the board. I know some of your 
colleagues have pushed for this for a while. My argument is 
keep pushing.
    Mr. Taylor. Do you think it is incumbent on the Federal 
Government to devise standards for cities, counties, you know, 
subdivisions of the U.S. Government to force cybersecurity? I 
mean, to have a Federal standard. Hey, this is--you need to 
response in this amount of time to this. You need to have this 
standard of security.
    Is that something that we should be looking toward doing, 
Mr. Duffy?
    Mr. Duffy. Well, I think, certainly, the standard should be 
a goal that folks should strive to achieve. One of the things 
we suffer from now, there are so many standards out there. 
There are so many criteria. Just as I mentioned with the 
Federal auditors. I was speaking to a State chief information 
security officer yesterday on this topic, and he told me that 
at the end of April, he had 4 different teams of Federal 
auditors on all asking different questions. Even the Federal 
Government doesn't ask the same questions.
    Mr. Taylor. So who are the 4 different teams? Like where do 
the 4 different standards come from?
    Mr. Duffy. I can find out for you.
    Mr. Taylor. OK. Mr. Cilluffo, do you----
    Mr. Cilluffo. You know, I think that the private sector 
needs to be part of whatever it is we are driving here. So I 
think that there are standards that may not only be legislated, 
but here is the--the reality is the private sector is on the 
front lines of this war. Just like how many cities went into 
business and how many companies went into business thinking 
they had to defend against foreign intelligence services. It is 
an unlevel playing field. It is. But the question is, do we 
have enough to know what a single standard is? I am not 100 
percent sure. I am not smart enough to figure that out.
    But I do think we have a series of them. I do think, at 
least with data breach notification, that is something worth 
fighting for.
    Mr. Taylor. Mr. Duffy, I think I cut you off. Did you want 
to finish?
    Mr. Duffy. No. Just on the data breach notification. I 
think the importance of a National standard is that businesses, 
especially small businesses that are now on the internet and 
doing business around the country, they now have to understand 
how to respond to a data breach with regulations in place in 50 
different States. It is hard for them to be able to follow what 
they need to do if there is a breach when there is 50 different 
regulations I have to follow.
    Mr. Taylor. OK.
    Ms. Bottoms. Mr. Taylor, may I just add, within hours of 
our attack, we went before the public to notify the public, 
because we didn't know if we were dealing with just a cyber 
ransomware attack or if we were dealing with a data breach. We 
found it extremely helpful to communicate that to the public, 
and it was appreciated. I think it gave us a little more 
leeway. The public was much more appreciative and patient with 
us during that recovery. So I do think it is helpful.
    Mr. Taylor. Thank you.
    I yield the balance of my time to the gentleman from New 
York.
    Mr. Katko. Thank you very much, my colleague.
    Mr. Cilluffo, just a very quick question. As many cities 
look to become smart cities, including the city of Syracuse, 
are they also considering, to your knowledge, cybersecurity 
risks associated with an internet of things and additional 
connectivity?
    Mr. Cilluffo. Well, thank you, Congressman Katko. That is 
an issue that should keep everyone here up at night.
    Mr. Katko. Indeed.
    Mr. Cilluffo. Smart cities are amazing opportunities. But 
it also exponentially expands the attack surface and can touch 
individual citizens directly that the only way to try to get 
our arms around this is to bake security into the design at the 
early stages, design and planning stages of smart cities. So 
shame on us if we are not thinking about this, but easier said 
than done.
    The highways of tomorrow are going to be paved in silicon 
as much as they are in asphalt. The reality is, is this is the 
future, and to retrofit afterwards is going to be exceedingly 
difficult, if not impossible. So big issue. Great opportunity. 
Just let's make sure it is not a footnote or an afterthought in 
our smart city planning.
    Mr. Katko. Thank you, Mr. Taylor.
    Thank you, Mr. Chairman.
    Mr. Richmond. The gentleman's time has expired.
    I now recognize the gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I want to thank our panel of witnesses, some of whom are 
very familiar to me and I have had the opportunity to meet 
with, so thank you for all that you are doing on this topic. I 
have covered a lot of important issues, and concerning the data 
breach notification, I agree. You know, we are focused right 
now on a different topic, but I have got a bill in for a 30-day 
data breach notification, which would be a 30-day Federal 
standard, and I think that is something that we should move 
along.
    We talk about cyber work force, of course, and we shouldn't 
look at this in terms of competition and try to--in terms of 
how the local, State, or Federal Government can compete for the 
talent that is out there. We really need to focus on growing 
the pie itself, not just our piece of the pie at the local, 
State, or Federal. That is, obviously, looking more deeply into 
our educational system and how we can incentivize people going 
into this field.
    But let me go back to what we are talking about and the 
issue of what is the right balance of, you know, State, local, 
and Federal attention support on cyber. So I have been trying 
to draw attention to and prioritize cybersecurity now for over 
a decade, and the problems of getting focus of dollars are, 
unfortunately, not new and they exist across the private sector 
and the Federal Government as well.
    So one of my concerns, though, is that the Federal 
investments will supplant rather than complement State and 
local funding, and I don't want to see that. We see that 
between the--you know, with the private sector, even critical 
infrastructure. We say the private sectors, you know, fine to 
say--they are quick to say, if you want us to do more on 
cybersecurity, well, then, you pay for it, but, you know, 
everybody really does have a role here.
    So for the panel, I wanted to ask, how can we better ensure 
that cybersecurity is a priority for leadership in State and 
local governments? What will incentivize State and local 
leaders to make adequate investments in this space?
    Mr. Duffy. One of the things that is happening recently 
with the FEMA grants, I mentioned earlier that we conduct a 
Nation-wide cybersecurity review of State and local 
governments, and right now, participation is voluntary. We have 
had relatively high participation in the State, around 90 
percent, but the local government has been low, and that is 
intended to identify gaps in the capabilities where they should 
be investing their money.
    With the new Homeland Security grant funding, there is a 
new requirement that recipients and subrecipients must take the 
Nation-wide cybersecurity review to find out, to identify where 
their gaps are, where their investments should be made. The 
nice thing about it, it is a confidential assessment, so the 
information on the assessment goes to them to help them develop 
a strategy where they should be making their investments.
    I certainly share your concern on it should not supplant 
funds. You know, it should be for new initiatives. That is 
always something that I think is real difficult for the 
guidance writers, but I defer to them on how they get that in 
there.
    Mr. Langevin. Anybody else on the panel care to comment?
    Mr. Sultan. Congressman, I think it is a really good 
question. I have previously worked very closely with the city 
and county of San Francisco's administration, especially with 
their digital staff, and I think if the city administration 
began having a frank conversation with the digital staff that 
work for the cities, they would understand that they are highly 
unequipped at this moment to deal with massive amounts of cyber 
attacks that are happening on a daily basis.
    Right now, the cybersecurity staff are not solely focused 
on cybersecurity. They usually have dual roles, and 
cybersecurity is usually a secondary role. So when they begin 
working and focusing on cybersecurity, they have to read 
documents that range between 300 to 500 pages. These are 
referred to as NIST documents that provide standards for 
cybersecurity.
    So when you look at these overworked staff that have to 
deal with cybersecurity standards, it can be incredibly 
cumbersome, frustrating, and difficult to deal with as the city 
isn't focusing on providing sole cybersecurity staff.
    Ms. Bottoms. As one of the panelists mentioned, I think 
matching funds in the same way that we seek matching funds for 
transportation and infrastructure projects, I think that that 
would be a great incentive for cities, because we are making 
the investments but often not enough. But I think any 
opportunity for us to have matching funding will also encourage 
us to invest more on our end.
    Mr. Langevin. I completely agree.
    Mr. Cilluffo. Congressman Langevin, I was just going to 
bring up that other point. But also in the opening statement by 
Ranking Member Katko, I think he said it was 1 or 2 percent of 
the IT spend is going toward security. Best practice in the 
private sector is 8 to 11 percent. So we really do need to 
bridge that gap there, and I think Mayor Lance Bottoms said it 
straight up, and the reality of matching funds would go a long 
way.
    I think it is also great that you have the executive 
testifying, not the CISO and--because ultimately, cybersecurity 
is an executive issue. It is not going to be relegated to the 
IT department. That is important, but it is ultimately 
understanding how cyber fits in to the risk of the company, 
country, or city.
    Mr. Langevin. Very good.
    Thank you all for your answers and your attention to this. 
I agree with a lot of what has been said, so thank you very 
much.
    Mr. Chairman, I yield back.
    Mr. Richmond. The gentleman from Rhode Island yields back.
    Before I recognize the gentlelady from New York, Mayor 
Bottoms, I understand you have a hard 4:15 stop?
    Ms. Bottoms. OK.
    Mr. Richmond. So let me just--before you get up, ask the 
gentlelady from Illinois and New York, do you have--did either 
of you have a specific question for the mayor?
    Well, with that, Madam Mayor, thank you for leaving your 
busy city and coming up here to provide valuable insight to 
this committee. So with that, we will just pause and give you a 
second to break. We don't want you to miss your plane back to 
Atlanta.
    Ms. Bottoms. Thank you.
    Mr. Richmond. The Saints and the Falcons will see each 
other twice this year.
    Ms. Bottoms. Thank you again.
    Mr. Richmond. I now recognize the gentlelady from New York, 
Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    This question is for any or all of you, the Ranking Member, 
Mr. Katko, and I recently wrote to the New York Metropolitan 
Transportation Authority expressing concerns over the 
possibility of buying subway railcars from a Chinese state-
owned entity. We did that because we were concerned that State 
and local governments don't have the proper resources to 
prepare for the threats posed by state actors since these types 
of National security decisions have typically taken place at 
the Federal level.
    How do we address this issue of supply chain--the supply 
chain issue at the local and State level?
    Mr. Cilluffo. Miss Rice, I will take first crack. So I 
testified recently before Transportation and Infrastructure on 
the CRRC and State-owned enterprises and the concerns that 
poses for the country, and I think they are genuine, real 
risks, especially when we start thinking about ZTE, Huawei, 5G. 
This is going to be the underpinning of modern societies, and 
we don't want it built on quicksand. So I think these are big 
issues.
    It took Congress, though, to help bridge a gap because 
Huawei is cheap. It is much cheaper. When you are in a city and 
a community and you want to do all you can for your citizens, 
you are going to find the most cost-effective way to do that. 
So you raise a really good question.
    Miss Rice. Well, it is hard to ignore that, though, Mr. 
Cilluffo----
    Mr. Cilluffo. Impossible to ignore.
    Miss Rice [continuing]. Because they always come in lowest 
bid. Always.
    Mr. Cilluffo. They are subsidized, on top of it, and they 
have got concessionary financing on top of that, so it is a 
triple whammy against some of these States. But I think when 
the Federal Government takes strong actions to ban certain 
technologies, that should be a nod toward State and local as 
well.
    Miss Rice. I totally----
    Mr. Cilluffo. At least for Federal grants.
    Miss Rice. Yes. I agree with you, and so, hopefully, we are 
going to get some answers there.
    Mr. Cilluffo. Mr. Sultan, you mentioned this in your 
written testimony and, Mr. Cilluffo, you referred to the magnet 
school for 7th through 12th graders. Can you just talk more 
about that? Because I think one of the biggest problems that we 
have in this field, on top of the funding--and you have all 
alluded to this as well--is the talent pool. We have to start 
building a talent pool because these issues are not going to go 
away.
    So can you explain, Mr. Cilluffo, a little bit more about 
this magnet school? Do we have to be--I understand the 
education and curriculum issues are run at the State level, but 
should this be a mandatory curriculum?
    Mr. Cilluffo. I will be very brief because I am sure Mr. 
Sultan has some thoughts. I am very proud of this magnet school 
because we do need to get them younger. I used to run an MBA 
with the focus on cybersecurity, and I would bring my students 
to a residency overseas in Estonia. In Estonia, you have got a 
small country, and I think you have been on a codel with Mr. 
McCaul, they are teaching coding at kindergarten. So--and then 
once you start hitting gumnaasium, or high school, they are 
already going into that particular--we need something similar 
here.
    So we need to make sure that everyone is cyber aware and 
savvy. So we have got to integrate cyber into all existing 
curricula and then we need more ninjas. We do need more very 
deep cyber expert work force, but we need both. I am really--
and not just because I am the--we need more women, not only in 
STEM but in cyber.
    Miss Rice. Amen to that.
    Mr. Cilluffo. Quite honestly, my students, they were the 
strongest, but we really do need to attract different types of 
students to be part of that solution set. We are just missing 
out on too much talent.
    Miss Rice. Well, we are just starting with the whole STEM 
reaching out to young girls--well, not just, but, you know, 
within the last 5 to 10 years, and this should be added to that 
for sure.
    Mr. Cilluffo. At the top of that list.
    Miss Rice. Yes.
    Mr. Sultan.
    Mr. Sultan. I just want to add that cybersecurity trainings 
are incredibly difficult to accomplish successfully. What 
happens is that, often, people become more scared after 
cybersecurity training. A lot of trainers use FAIR appeals very 
effectively and very ineffectively a lot of times. So what 
happens is that the participants of these trainings become so 
afraid--and there is a lot of literature on how cybersecurity 
trainings fail--that they begin to withdraw from using the 
internet. They begin to withdraw from using key internet 
services that could enrich their own lives. And so----
    Miss Rice. How do you address that issue? I mean, it is 
what it is. It is frightening.
    Mr. Sultan. It is frightening, but I think a lot of 
participants, at least those that I have interviewed and 
surveyed personally, fall on a spectrum of confidence and 
trust. If you understand where they fall on that spectrum, you 
can actually change it very easily.
    So often at times participants can have over low 
confidence, low confidence that is below their actual 
understanding and skill level. So you can actually correct that 
through measures by trying to discuss with them what their 
cultural understanding, their background of cybersecurity is, 
where they get resources, how they can improve those resources, 
and overall improve their understanding of realistic threat 
assessment as opposed to exaggerating the threat assessment, 
which a lot of trainers do.
    Miss Rice. Very interesting point. I have a lot more 
questions, but my time is up. Thank you.
    I yield back.
    Mr. Richmond. The gentlelady yields back.
    Now the gentlewoman from Illinois is recognized for 5 
minutes.
    Ms. Underwood. Thank you, Mr. Chairman, and thank you all 
for calling today's hearing on this critically important topic.
    Cybersecurity is a challenge for State and local 
governments across America, but the suburban and rural 
communities that I represent in northern Illinois don't have 
the resources that big cities have, and as such, are at an 
increased risk of cybersecurity attacks.
    A city official told us that he relies heavily on informal 
networks with other city officials and on professional IT 
associations, such as GMIS International, to ensure that the 
city's cybersecurity needs are met.
    Mr. Sultan, in your testimony, you referenced concerns for 
cybersecurity inequality between rural and urban or suburban 
communities. What steps could the Federal Government take to 
bridge this inequality gap?
    Mr. Sultan. The Federal Government could support local 
governments, understanding where the baseline is for the rural 
areas and especially the urban areas as well. Figure out how 
low-income households and how low-income communities fair in 
terms of their understanding and skill level on cybersecurity.
    They can conduct surveys to better gauge where those 
populations fall, and then they can actually conduct trainings. 
They can actually partner with private technology companies to 
provide software updates to phones that are outdated. They can 
provide system level support. They can facilitate trainings 
with the private technology companies, but not to supplant the 
Federal Government's networks with the populations, because you 
don't want the private technology companies determining what 
those trainings look like.
    So there are a host of options for the Federal and local 
governments to improve and understand their populations' 
cybersecurity needs.
    Ms. Underwood. Thank you. Do you have any recommendations 
for rural communities that are at just the beginning stages for 
setting up their infrastructure? You know, the idea that a 
local community would even know which private company to 
approach is something that I think we sort-of take for granted 
for people that are just beginning to bolster their 
capabilities.
    Mr. Sultan. That is an excellent point, and I think that is 
where the Federal Government can play a really important role, 
because the Federal Government has the ability and the 
opportunity to connect with these private technology companies 
in ways that are far more realistic and centralized than local 
governments can.
    They can also create public awareness campaigns, push them 
out into schools, push them out into television, on social 
media platforms, on radio. Because without a public awareness 
campaign, people aren't going to be very interested in even 
participating in those trainings. I had to use a lot of 
incentives to get vulnerable populations to even come to 
discuss their needs about cybersecurity. So if you offer a 
training, the chances are they might not appear.
    Ms. Underwood. Right. Do you have any advice for local 
governments to better educate their communities on the 
appropriate personal cybersecurity best practices?
    Mr. Sultan. I think--in terms of staff?
    Ms. Underwood. Uh-huh.
    Mr. Sultan. I think with staff you can improve trainings, 
but you can also simplify the cybersecurity documentation that 
they are currently working with. They are using centralized 
documentation that spans hundreds of pages, they are fairly 
dry, not very interesting, and I think you can make trainings 
that are more engaging. So instead of just trying to pass off a 
document to staff that probably have other responsibilities 
other than cybersecurity, they are probably responsible for IT 
and system infrastructure, you could focus on cybersecurity 
through engaging trainings. Those could be digital trainings. 
They don't have to be personal trainings so they can scale 
better.
    Ms. Underwood. Chairman Richmond recently convened this 
committee to address the lack of diversity in our talent 
pipeline for the cybersecurity field. We touched on the need 
for gender diversity in particular. But as you know, that there 
is a real high number, significant number of unfilled 
cybersecurity jobs across the country.
    So, Mr. Duffy, do you have any feedback or ideas for what 
Congress and the Federal Government can do to attract more 
skilled cybersecurity professionals, particularly from diverse 
backgrounds?
    Mr. Duffy. Yes. One of the things you need to do is 
certainly identify those individuals that may have not thought 
they had a talent in cybersecurity. We work closely with the 
SANS Institute and with the Governors around the country with 
something called the CyberStart Program. This is something that 
is basically industry funded. Twenty-six Governors participated 
in this past year. What the program is, the schools develop 
these programs or they try to identify individuals who may not 
have an interest in technology but have a real aptitude. So how 
do they go about finding those folks that have an aptitude but 
not the interest, and that is what the program is about.
    It is the third year of the program. The first year of the 
program, there--shouldn't be surprised, like 85 percent of the 
participants were boys. So in year two, they did it for girls 
only because they wanted to deal with the gender issue. So this 
year, they have a combination. One program is for the boys and 
the girls, but yet a second program is just for the girls only 
because they are trying to work on the gender issue.
    Ms. Underwood. Excellent. Well, it is my hope that as we 
have models like this that private industry is supporting, that 
we can count on the Cybersecurity and Infrastructure Security 
Agency to develop innovative programs to help States and local 
officials who don't have expertise and maybe who don't have a 
local private company to sponsor something in their community. 
This is something that is important everywhere and we want to 
make sure that we are properly prepared.
    Thank you all so much for being here.
    Thank you, Mr. Chairman, for convening this hearing. I 
yield back.
    Mr. Richmond. The gentlelady from Illinois yields back.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses and we ask that you respond expeditiously in 
writing to those questions.
    I would ask unanimous consent to insert into the record 
written testimony in today's hearing from Talib Karim of 
STEM4US!, Inc.
    [The information follows:]
            Statement of Talib I. Karim, CEO STEM4US!, Inc.
                             June 24, 2019
    Good afternoon. My name is Talib I. Karim, and I am a co-founder 
and chief executive officer for STEM4US!, Inc. As background, I have 
spent over 2 decades working on cybersecurity and other public policy 
issues. This includes serving chief counsel and legislative director to 
Congresswoman Sheila Jackson Lee, a senior Member of the Homeland 
Security Committee.
    STEM4US! is a non-profit organization based in Washington, DC, that 
works with universities, businesses, Government entities, and other 
non-profits to scale investments, training, and promotion of the 
cybersecurity and other STEM fields. Our goal is to transform the STEM 
workforce by creating 600,000 new cybersecurity professionals by 2030. 
To ensure that the STEM field reflects the rich diversity of this 
Nation, we aim to ensure that at least 50 percent of these new 
cybersecurity workers are African Americans, Latinos, and women. By 
focusing on diversity, we can foster creativity and offer a range of 
perspectives and ideas in the cybersecurity realm.
    Today, several factors impede the ability of State and local 
governments to protect critical infrastructures from cyber attacks. 
Among these structural impediments are regulations at the State and 
local levels, limited resources, and an expanded attack surface. We 
wish to raise a few constructive points regarding this important topic.
    First, insufficient funding and staff has been identified by 
members of State and local governments as one of the key barriers to 
effective cybersecurity. Without the necessary funding, it is difficult 
for State and local governments to hire the qualified cybersecurity 
experts necessary for providing cybersecurity protection. Cybersecurity 
expenditure constitutes a small percentage of the overall budget: 
According to a 2015 report, most State cyber budgets are between 0-2 
percent of the overall IT budget. This means that governments do not 
have the resources or expertise necessary for a resilient cybersecurity 
infrastructure. Therefore, it is imperative that cybersecurity becomes 
a greater spending priority for governments. By addressing the lack of 
budgetary resources, governments will be able to hire and retain a 
greater number of cybersecurity personnel.
    In order to achieve this goal, STEM4US! proposes what we've called 
the ``Cybersecurity Pell Grant.'' Under this proposal, Congress would 
authorize and appropriate $1.5 billion each year, for a 10-year period 
to fund free cybersecurity and related training. This training would be 
offered at 250 Historically Black Colleges and Universities and other 
Minority-Serving Institutions along with community colleges and high 
schools. If fully funded for 10 years, the grant could create more than 
600,000 new, more adequately trained American cybersecurity workers.
    If our proposed legislation is enacted, the grants would support 15 
weeks of cyber training. The tracks of the cyber training would include 
cyber defense and incident handling skills as well as drone maintenance 
and operations. Additionally, each training program would have the 
capacity to train 300 students per year in 3 cohorts--spring, fall, and 
summer. Therefore, through this initiative, STEM4US! would create a 
pipeline of talented and skilled cybersecurity workers. These newly-
trained cyber workers would work for Government agencies or contractors 
in their respective communities. This, in turn, would create a Nation-
wide network of cybersecurity personnel who would increase the 
resiliency of their State and local governments to cyber attacks. These 
grants would result in a hardening of the Nation's critical 
infrastructure.
    Earlier this year, STEM4US! organized a fly in that allowed our 
stakeholders to meet with staff from this committee along other House 
and Senate leaders to discuss our ``Cybersecurity Pell Grants'' 
proposal. To advance this idea, we call on the Subcommittee Chair and 
Ranking Member to partner and both sponsor a bill that would capture 
this proposal.
    The field of cybersecurity is one of the fastest-growing job fields 
in the Nation, but there is a critical shortage of qualified 
cybersecurity personnel. Therefore, there is a clear imperative to 
expand the Nation's cybersecurity workforce. Our proposed 
``Cybersecurity Pell Grants'' would ensure that State and Federal 
Government agencies have an ample source of cybersecurity workers they 
need to protect the Nation's cybersecurity infrastructure.
    STEM4US! appreciates this opportunity to provide this testimony.

    Mr. Richmond. Without objection, the committee record 
should be kept open for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
